<html>
<title> - LESSONS LEARNED FROM SUPER BOWL PREPARATIONS: PREVENTING INTERNATIONAL HUMAN TRAFFICKING AT MAJOR SPORTING EVENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    LESSONS LEARNED FROM SUPER BOWL

                 PREPARATIONS: PREVENTING INTERNATIONAL

                       HUMAN TRAFFICKING AT MAJOR

                            SPORTING EVENTS
=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 27, 2014

                               __________

                           Serial No. 113-177

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
86-465                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................    10
Ms. Maria M. Odom, Chair, Blue Campaign, U.S. Department of 
  Homeland Security..............................................    18
Ms. Polly Hanson, chief of police, National Railroad Passenger 
  Corporation (AMTRAK)...........................................    36
Ms. Nancy Rivard, president and founder, Airline Ambassadors 
  International..................................................    43
Ms. Carol Smolenski, executive director, End Child Prostitution 
  and Trafficking-USA............................................    47
Ms. Letty Ashworth, general manager of global diversity, Delta 
  Airlines.......................................................    55
Ms. Holly Smith, survivor of trafficking and anti-trafficking 
  advocate.......................................................    60

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Luis CdeBaca: Prepared statement...................    13
Ms. Maria M. Odom: Prepared statement............................    20
Ms. Polly Hanson: Prepared statement.............................    39
Ms. Nancy Rivard: Prepared statement.............................    45
Ms. Carol Smolenski: Prepared statement..........................    50
Ms. Letty Ashworth: Prepared statement...........................    57
Ms. Holly Smith: Prepared statement..............................    63

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    76
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    77
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: American Airlines statement for the record......    78
Written responses from the Honorable Luis CdeBaca to questions 
  submitted for the record by the Honorable Christopher H. Smith.    80
Written response from Ms. Maria M. Odom to question submitted for 
  the record by:
  The Honorable Mark Meadows, a Representative in Congress from 
    the State of North Carolina..................................    82
  The Honorable David G. Reichert, a Representative in Congress 
    from the State of Washington.................................    83
Ms. Nancy Rivard: Material submitted for the record..............    84


                       LESSONS LEARNED FROM SUPER


                     BOWL PREPARATIONS: PREVENTING

                    INTERNATIONAL HUMAN TRAFFICKING

                        AT MAJOR SPORTING EVENTS

                              ----------                              


                        MONDAY, JANUARY 27, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. The subcommittee will come to 
order.
    And good afternoon to everybody, and thank you for being 
here. It is great to see so many friends and familiar faces who 
are champions in the fight in combatting human trafficking.
    Our hearing today will focus on the preparations for the 
upcoming Super Bowl to prevent human trafficking, and 
strategies employed by airlines, buses, and trains, as well as 
hotels, designed to mitigate human trafficking.
    In less than a week, New Jersey will be hosting the Super 
Bowl, and along with welcoming enthusiastic fans, the State 
also is preparing for the likely influx of both domestic and 
international traffickers. As a matter of fact, many of them 
are already there. Sadly, but almost certainly, they are 
bringing with them sexually exploited trafficking victims, many 
of them from abroad, in an attempt to cash in on the Super Bowl 
crowds.
    We know from the past any sports venue, and especially the 
Super Bowl, acts as a sex trafficking magnet. The National 
Center for Missing and Exploited Children, for example, reports 
that more than 10,000 exploited women and girls were trafficked 
to Miami for the Super Bowl in 2010.
    This must not happen again. New Jersey Governor Chris 
Christie has put in place a robust anti-human trafficking plan. 
For example, his Department of Homeland Security and 
Preparedness has stepped up efforts to combat trafficking at 
the Super Bowl, distributing flyers to emergency medical 
services, fire department, law enforcement, and other emergency 
care professions so that these front line professionals will 
know when to be concerned that someone is a trafficking victim 
and how to respond appropriately. The transportation and 
hospitality training concept has proven straightforward, 
effective, and thankfully, it is catching on.
    On her way to yet another assembly and community awareness 
conference, this time at St. Elizabeth's College in Morristown, 
New Jersey Assistant Attorney General Tracy Thompson, who is 
spearheading the Christie administration's anti-human 
trafficking effort, told me earlier today that they have 
trained 10,000 people, including the Train the Trainer 
initiative. She noted that the Super Bowl creates an increased 
``breeding ground'' for sex trafficking. She also said, 
``Today's victims can be any race, age, or gender. Victims are 
exploited for prostitution, pornography, and forced labor.'' 
She went on to say, ``Traffickers control victims through force 
and fraud, utilizing physical and psychological abuse, threats, 
and isolation. Know it. See it. Report it.''
    According to Texas Attorney General Greg Abbott, the Super 
Bowl can be described as, as he puts it, and I quote him, ``the 
single largest human trafficking incident in the United 
States.'' Captain Doug Cain, Louisiana State Police spokesman, 
said after the 2013 Super Bowl in New Orleans, ``Any time you 
have a large influx of tourists in town, and they are spending 
a lot of money, there is a criminal element that moves in to 
take advantage of that.''
    Greece, which hosted the Olympics in 2004, saw a 95-percent 
increase in trafficking victims in the months leading up to and 
including the Olympics. Next month, Russia, a country ranked at 
the lowest tier, what we call Tier 3, by the annual U.S. 
Department of State's Trafficking in Persons Report, as we all 
know will host the Olympic Games. Since Russia does not have in 
place any formal national procedures to guide law enforcement 
in the identification of sex trafficking victims, and does not 
fund trafficking victim care, I and so many others are very 
concerned that the 2014 Winter Olympics may turn out to be a 
trafficking nightmare.
    Later this year, Brazil will host the 2014 World Cup, and 
then the 2016 Summer Olympics. Although Brazil has improved 
their anti-trafficking laws, and I have actually been there, I 
have met with lawmakers in Brasilia, and is taking steps to 
mitigate trafficking risks, the fact remains that Brazil will 
have to do much more if they want to protect their children 
from sex tourism. Numbers from Brazil's Federal Police indicate 
that between 250,000 to 400,000 children are forcibly 
prostituted.
    Worldwide, the best estimates are that 600,000 to 800,000 
trafficking victims are moved across international borders 
every year. Millions more victims are moved within national 
borders. But anti-trafficking efforts have only recently turned 
to equipping transportation employees to identify victims in 
transit. The training is easy, it is inexpensive, and it is 
already saving lives.
    In July 2010, I chaired a conference here in Washington to 
bring together relevant U.S. agencies such as Customs and 
Border Patrol, various U.S. airlines, and nongovernmental 
organizations to focus on interdicting traffickers by training 
commercial transportation employees to recognize the indicators 
for trafficking.
    Speakers included Deborah Sigmund, who is here with us 
today, founder of an NGO called Innocents at Risk, and she 
explained how flight attendants were the first line of defense 
in the fight against human trafficking. As a matter of fact, I 
took her pamphlet and handed out hundreds of copies of that 
pamphlet to other parliamentarians at the next Parliamentary 
Assembly of the Organization for Security and Cooperation in 
Europe.
    Flight attendants are in a unique position to observe 
potential trafficking in progress and then call a trafficking 
hotline or inform the pilot to radio ahead so that proper 
authorities can intervene.
    Former flight attendant Nancy Rivard, president of Airline 
Ambassadors International, one of today's witnesses, told us 
how she and other flight attendants compared notes one day and 
were shocked and dismayed at how often they had noticed what 
they suspected was trafficking or a trafficked woman or child 
on their flight, but had no training or protocol to do 
something about it. Nancy has been doing a great deal about it 
ever since, training airline employees around the United States 
and around the world.
    Last year, I was privileged to join Ms. Rivard at a 
training seminar in Kiev, Ukraine. One of the earliest 
successes of the program was a call Ms. Rivard placed to the 
U.S. Department of Homeland Security regarding a child she had 
observed on her flight from the Dominican Republic to Boston. 
That tip led to the breakup of a trafficking ring that had 
transported more than 80 children to the United States.
    Just last year, the U.S. Department of Homeland Security 
released a similar training initiative called the Blue 
Lightning program to domestic U.S. airlines. And so far Delta, 
JetBlue, Allegiant, and North American Airlines are on board. 
With minimal modifications, the training is also easily 
adaptable to bus drivers and station operators, train 
conductors, trucking associations, and other transportation 
industry professionals. At one time or another, every 
trafficking victim will be moved. We need to interdict that 
movement, rescue the trafficking victim, and put behind bars 
the person involved with the slave trade.
    The New Jersey Human Trafficking Task Force, which was 
originally started with seed money from a law that I authored, 
known as the Trafficking Victims Protection Act of 2000, and 
subsequent reauthorizations, is working overtime to mitigate 
sex trafficking, and has released, like the governor's office, 
anti-trafficking brochures to bus and train employees in New 
Jersey, as well as reached out to other major industries on the 
front lines of spotting traffickers and victims, including 
hotels. We have included at the press table some of that 
material, which I encourage you to take a look at.
    We have with us today the NGO End Child Prostitution and 
Tracking, or ECPAT-USA, which has been conducting hotel 
training on behalf of the task force in the lead-up to the 
Super Bowl. Hyatt, Hilton, Wyndham, Carlson, and Accor Hotels 
have been establishing a new industry standard to ensure that 
their properties are not used for human trafficking.
    In addition to reaching out to transportation employees and 
hotels, the New Jersey Human Trafficking Task Force has 
increased print and electronic public service announcements and 
training programs for law enforcement, health care workers, 
lawyers, and others on the front line.
    In December, the Organization for Security and Cooperation 
in Europe, or the OSCE--not many people have perhaps heard of 
it, but it is kind of like the human rights counterpart to NATO 
in Europe, it is comprised of 57 countries from Europe and 
North America--endorsed my plan to make anti-trafficking 
training for airline employees, other public and commercial 
carriers, as well as hotel employees a primary goal in the 
international strategy to combat human trafficking.
    I want to especially thank the Ukrainian Chair-in-Office, 
and the Ukrainian Government, who took the lead, working side 
by side with the United States and other interested countries, 
to make sure that that language was included in the action 
plan. So thank you, Ukraine.
    In Istanbul, Turkey at the OSCE Parliamentary Assembly last 
July, members of Parliaments, well over 250, maybe as many as 
300, adopted my resolution to implement such a training in each 
and every country of the 57 nations.
    Any country that competes to host the next major sporting 
event must be fully aware of the human trafficking 
vulnerabilities associated with such events and the best 
practices for protecting and rescuing victims. In fact, the 
International Olympic Committee and the Federation 
Internationale de Football Association, or FIFA, should take 
into consideration a country's anti-trafficking commitment and 
ability when awarding those games.
    We will soon be writing a letter to all of these 
associations asking them to make that part of the criteria. 
Standard anti-trafficking measures should be included along 
with the required security measures.
    Finally, the only standard that fits the crime of human 
trafficking is zero tolerance. And it must be rigorously and 
faithfully enforced by arrests of those engaged in this 
nefarious trade, modern day slavery.
    And there can be no higher priority than the liberation and 
protection of the victims. We have had many victims come to 
this committee and give their testimony. Through their tears 
and through their agony, they have asked us, practically begged 
us, to do more. We have to respond more aggressively.
    Combating human trafficking must be continuously 
prioritized at all levels of government, the faith community, 
civil society, and corporations, including the National 
Football League, the NFL. All of us must do our part to protect 
women and girls.
    I would like to yield to the vice chairman of the 
subcommittee, Mr. Weber, the gentleman from Texas, and would 
note Mr. Weber was the prime author of the legislation in 
Texas, the State law on combating human trafficking, and has 
been a leader for many, many years.
    I yield to Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. Thank you for holding 
the hearing.
    And thank you all for being here. I was privileged to be 
out in California with the Ambassador some months back. 
Chairman Ed Royce held, I guess, a forum out there to talk 
about this very egregious problem.
    We take pride in Texas in everything being bigger and 
better. And unfortunately, this is not one of the records that 
we want. Texas has the dubious distinction of having about 25 
percent of the human trafficking in the country, so it is 
something that we take very seriously and we work very hard on. 
The chairman is very kind, we were able to pass some landmark 
legislation to heighten awareness, to increase penalties, to 
actually ferret out some of what I learned in California, the 
Ambassador might remember, they were calling POS's, purchasers 
of sex. We call them POS's in Texas, too, but it has a little 
bit of a different meaning. And I won't repeat that here, so it 
is a very bad problem, and you are right, we need zero 
tolerance.
    And there is a human trafficking hotline. And for the 
record, it is 888-3737-888. It is really easy to remember. And 
we encourage people, if you think, if you suspect something is 
out of the ordinary, like the flight attendants were talking 
about, please call that hotline. It is important: 888-3737-888.
    And I will leave it at that for the time being, Mr. 
Chairman. I yield back.
    Mr. Smith of New Jersey. Thank you very much, Mr. Weber.
    I would like to now yield to our former Ambassador, Ann 
Wagner, who is not a member of this committee but is so 
concerned about this issue she has gotten here early and has 
joined us. Most Members are arriving somewhere around 6 o'clock 
tonight.
    I yield to the gentlelady, Ms. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    I represent Missouri's Second congressional District, from 
the St. Louis area. We also, Congressman Weber, sadly are in 
the top 20 in the Nation for sex trafficking, and it is a 
deplorable statistic.
    Now I thank the chairman and committee members. I thank you 
all for convening this hearing today and allowing me to discuss 
the upcoming Super Bowl and the efforts to combat the surge in 
sex trafficking that often results from prominent sporting 
events and conventions such as these. I applaud the committee's 
effort to increase awareness of this very important issue, 
especially Chairman Smith's ongoing leadership and dedication 
to fighting this terrible crime, and the effects on the most 
vulnerable members of our society.
    As a former United States Ambassador, I was exposed 
firsthand to the horrors of human trafficking on an 
international level. I witnessed and reported on the 
devastating consequences of human trafficking, where innocent 
children were dragged into the dark abyss of sex slavery. I 
worked in close coordination with law enforcement, foreign 
governments, our U.S. State Department, and the private sector 
to stop this heinous exploitation from happening.
    But never, never in my wildest dreams did I ever think that 
human trafficking was so rampant in the United States of 
America, in our neighborhoods, in our school districts, in our 
faith communities. While some of my colleagues might think that 
this could never happen in their own district, there are young 
women being forced into prostitution right now in virtually 
every district across this Nation. It is hiding in plain sight.
    According to the United Nations, human trafficking 
generates $9.5 billion in revenue yearly in the United States. 
The Department of Justice has estimated that approximately 
300,000 children are currently at risk of being prostituted in 
the United States alone. Shockingly, the average age of entry 
into prostitution for a child victim in the U.S. is 13 to 14 
years old.
    As a mother, and an aunt of teenage daughters, I am 
especially concerned that the victims be given a voice. They 
are not nameless, faceless children. They are our daughters, 
our granddaughters, our nieces, and our neighbors. They are the 
vulnerable youth of our society, the ones who should be 
protected the most, not exploited for money and greed.
    As legislators, we have an obligation to come together and 
do something because we can, because we should, and because we 
must. Partnership between the public and private sectors is a 
key to combating human trafficking at major events like the 
Super Bowl. That is why I am happy to see representatives from 
private industry here today. Many times front-line employees of 
the transportation industry--and I certainly recognize Delta 
Airlines is here, and has been a wonderful partner in this 
regard--and the hospitality industries are the ones best suited 
to identify trafficking victims and their predators.
    In addition to sporting events like the Super Bowl, 
conferences and conventions can also be magnets of sex 
trafficking. The conference and hospitality industry, along 
with corporate partners, have a vital role to play in combating 
sexual exploitation.
    I would like to highlight for just a minute the work of the 
St. Louis company that is a leader in this area, Nix Conference 
and Meeting Management. It has been especially active through 
better awareness and educating the industry on the signs of 
human trafficking. I applaud their efforts to host the 2014 
IGNITE Conference in St. Louis on March 2nd through the 4th. It 
is dedicated to engaging, educating, and empowering a diverse 
group of supporters and stakeholders to combating sex 
trafficking. Increased awareness and training will lead to more 
victims being identified, which is a critical step in breaking 
the cycle of exploitation and victimization.
    But our work does not end there. Congress, Congress has the 
opportunity to take a stand to protect our children from the 
devastating consequences of sex trafficking. That is why I am 
supporting several pieces of bipartisan legislation that would 
give law enforcement, prosecutors, and social services the 
necessary tools and resources to combat human trafficking and 
boost support for the victims.
    I applaud Representatives Poe and Paulsen, Chairman Smith 
and others, Walberg, Carter, Royce, Reichert, Bass, and many, 
many others for their legislative efforts to fight the scourge 
of human trafficking. I am committed to making this a 
legislative priority in 2014.
    I would like to briefly mention another issue that demands 
legislative action. Over the last 10 or so years, prostitution 
has migrated to an online marketplace. Online classified 
services, such as Backpage.com, have become the vehicle for 
advertising the victims of the child sex trade to the world. 
Online customers choose Web sites like Backpage and other 
advertisers to order an underage girl to their hotel room as 
easily as if they were ordering a delivery pizza.
    Now, just think about that for a second. Close your eyes 
and picture your daughter, your niece, or any innocent young 
girl that you care about being sold for exploitation to a 
complete stranger. These publicly released pictures that are 
playing on the television right now could be that innocent 
angel that you just pictured.
    It is our moral obligation and our legislative duty to 
ensure that advertisements of child sex trafficking, like 
Backpage and others, are not allowed to operate and claim yet 
another victim.
    I end my testimony, Mr. Chairman, today, with the highest 
praise for your efforts and the committee and those that are 
here to testify today. I thank you.
    I thank you, Ambassador. I enjoyed having our conversation, 
and the work that you do at the State Department on an 
international level.
    Ms. Odom, I look forward to working with you and your 
office, and receiving the resources and tools and support to 
get the word out.
    The efforts of public officials to raise awareness of human 
trafficking are critical to combating this reprehensible crime. 
It is only through increased awareness, resources, and 
legislative action that we will one day realize a society that 
protects its most vulnerable victims from sexual exploitation 
and enslavement.
    I thank you.
    Mr. Smith of New Jersey. Ambassador Wagner, thank you so 
much for your very strong, articulate, and passionate speech. 
It is nice to know we have somebody who comes from the 
ambassadorial ranks who brings that understanding and that 
gravitas.
    And I think your point about Craigslist and Backpage, I was 
talking to Jonathan Marino earlier today about Twitter. And we 
are planning on doing a hearing on those types of media, and 
Twitter's very, very shameless record of promoting the 
exploitation of women and young girls. So thank you so very 
much.
    I would like to now yield to my good friend and colleague, 
Mark Meadows, who is also the delegate to the United Nations 
from the Foreign Affairs Committee, and a very faithful member 
of this subcommittee on all matters related to human rights, 
and a leader and a champion for human rights.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And I just want to speak very briefly, but from the heart. 
You know, these events, the Super Bowl, lets us highlight human 
trafficking as an issue just because of the sheer numbers. But 
day in and day out, we know, Mr. Ambassador, we have spoken 
before, this is something that continues to affect families and 
young girls across, not just this country, but across the 
world.
    And it is only through truly looking at this particular 
problem and believing that we can conquer it together that we 
will be successful, because Super Bowls come and go. Numbers 
continue to get reported over and over again. And it is very 
easy to get discouraged and say that we are not making a 
difference.
    But as a father, and as a father of a daughter who some 5 
years ago highlighted this problem for me and started to share 
how tragic it is in our country and in our world, it was 
something that really wasn't on the radar screen for me until 
she brought it out. And she is now a junior in college, about 
to graduate. And so her life's calling is really to address 
this particular issue. I said, Honey, what do you want do after 
you graduate? She said, I really want to get involved to make 
sure that human trafficking is a thing of the past.
    And so for all the times that you may be discouraged, 
whether it is this panel or the panel to come, there are those 
who are starting to come alongside you to fight, to make sure 
that even if it continues, that we can make a difference, one 
girl at a time. And I am committed to work alongside each one 
of you. I thank you for your service and your heart that it 
represents.
    And I thank the chairman for holding this hearing and for 
his undying, relentless pursuit on behalf of those who many 
times can't speak for themselves.
    I yield back.
    Mr. Smith of New Jersey. Thank you very much, Mr. Meadows.
    We are also joined by another Member who is not a member of 
our subcommittee, but a former sheriff of King County in 
Washington State, the president of the Washington State 
Sheriffs Association and, in 2004, won the National Sheriffs' 
Association Sheriff of the Year Award, two valor awards, and 
the Washington State Attorney General's Award for Courageous 
Action.
    A man of action, a man who knows what it is to combat the 
bad guys, and has done so successfully. It is so great to have 
him here, and a real leader on human trafficking, combating it, 
Dave Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. Thank you for 
inviting me to attend the hearing today.
    I came back yesterday especially to be here. I would be on 
an airplane right now, but this is important for all of us to 
be here. And thank you all for being here today to attend this 
hearing.
    Mr. Chairman, I want to thank you, and I am grateful for 
your work in preventing human trafficking and especially as 
chairman of this subcommittee and as the co-chair of the House 
anti-human trafficking caucus. It is critical that Congress 
explore how sex trafficking is connected to major sporting 
events so we can better prevent it from happening.
    Now, I have a whole prepared statement here that I was 
going to read, but I am not going to do that. I might read 
parts of it. But the statements by the other members have 
really touched me. And I hope they have touched you.
    I saw some faces looking at the screen of the faces of the 
young girls and young women. It brought back memories for me. 
Maybe some of you in the room already are aware. But I look 
like I have been in Congress for 40 years, but this is my 10th 
year. So I had a previous career, and that was with the 
sheriff's office for 33 years. A good portion of my career was 
working on a serial murder case in Seattle called the Green 
River murder case.
    I was 32 years old when I started that case in 1982. It 
took 19 years. He pled guilty to 49 deaths, murders. I am not 
even going to use his name. It sickens me. Forty-nine that he 
pled guilty to. He probably killed 70 to 80 young girls and 
young women. We closed 51 cases. I was the lead investigator in 
that case, and I was at almost every one of those dead body 
sites. I recovered their remains. I told the parents we found 
their victims, their daughters dead. Some were missing 6 years.
    For me, I am a runaway myself. I grew up in a family of 
domestic violence, and ran away and lived in a 1956 Mercury for 
a while that I happened to buy myself. Fortunately for me, I 
had a football coach that kind of grabbed me by the back of the 
collar and put me on the straight and narrow, kept me on the 
football team, kept me in school. But I understand why young 
women and young men today run away from home. They are victims 
of abuse, sexual abuse, physical abuse, emotional abuse, 
domestic violence, alcohol, drug abuse.
    You name it, I have seen it, I have been there, I have been 
to the homes. I have taken foster kids from one home to another 
foster home in the middle of the night, with phone calls from 
foster kids, from young girls and young boys on the street at a 
phone booth, just looking for a place to stay to get off the 
street to find some safety.
    Back in the 1980s, you know, when we had so many 
prostitutes on the streets of Seattle, and I would imagine 
similar to today, those young ladies, most of them are young 
girls and women, are invisible. People go from their job to 
home, from home to their job, and they don't see them.
    We need to open our eyes. We need to see them. And I think 
today the people in this room clearly understand and can see 
them. And I know a lot of you are already working in this world 
to try to make it better for these young girls to find them 
places to stay. So as a runaway myself, and then going to the 
sheriff's office, I happened to walk in front of the sergeant's 
desk when a body was found, and that is how I was assigned the 
first Green River victim in 1982.
    So just by chance, for the next many years, that was my 
calling, to work with those young people on the street and 
those families. And now here I am in Congress, and I chair the 
Human Resources Subcommittee on the Ways and Means Committee. 
And what is my focus? Foster kids and human trafficking. We 
have got to do a better job, ladies and gentlemen. You have 
heard that message today loud and clear. There are a lot of 
young men and women in this audience. And maybe you have never 
even met a young girl or a young boy that has lived on the 
street. You have opportunities in front of you that they may 
never have. But we need to make it a world where they have 
those opportunities.
    So I really want to thank the chairman again for inviting 
me to be here. I want to say a special thank you to Holly 
Smith, who will be on the second panel. It takes a lot of 
courage to come before a group like this to stand and tell your 
story. And she is here to do that, to help us solve this 
problem.
    So Mr. Chairman, again, I thank you very much for inviting 
me to be here today, and very much for the opportunity to make 
this opening statement. And I appreciate, again, all the hard 
work by the members of this committee and others in Congress 
and all of you.
    Thank you so much.
    Mr. Smith of New Jersey. Chairman Reichert, thank you very 
much. Or I should say ``sheriff.'' Thank you for that very, 
very incisive and moving account and testimony.
    I would like to now introduce our two very distinguished 
panelists. It is an honor and a privilege to welcome them to 
the subcommittee.
    Certainly with Ambassador Luis CdeBaca, I have worked with 
him for decades, and I thank him for his extraordinary service. 
Ambassador Luis CdeBaca coordinates U.S. Government activities 
in the global fight against contemporary forms of slavery. He 
serves as senior adviser to the Secretary of State, and directs 
the State Department's Office to Monitor and Combat Trafficking 
in Persons, which assesses global trends, provides training and 
technical assistance, and advocates for an end to modern day 
slavery.
    Ambassador CdeBaca formerly served as the counsel to the 
House Committee on the Judiciary, where his portfolio included 
trafficking issues. He has also served as a Federal prosecutor 
with the Department of Justice, where he convicted dozens of 
abusive pimps and employers, and helped to liberate hundreds of 
victims from servitude.
    Thank you for your extraordinary service.
    We will then hear from Ms. Maria Odom, who serves in the 
Department of Homeland Security, in the Citizenship and 
Immigration Services as ombudsman, and as chair of the 
department's Blue Campaign, the unified voice for DHS' efforts 
to combat human trafficking through training and public 
education.
    Ms. Odom came to the department as a legal expert with a 
wide range of immigration experience in the government, 
private, and charitable sectors. Most recently, she led the 
country's largest network of charitable legal immigration 
programs as the executive director of the Catholic Legal 
Immigration Network.
    Mr. Ambassador, the floor is yours.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Good afternoon, Mr. Chairman, and thank 
you for the invitation to testify today, for calling this 
hearing to shine a brighter light on modern slavery and, more 
importantly, for your years of leadership on this issue.
    Today we are focusing on a specific concern that has 
garnered the attention of the entire anti-trafficking 
community, human trafficking around major sporting events, and 
lessons that can be learned, especially in the hospitality and 
transportation sectors.
    But before we dig down into that issue, it is important to 
remind ourselves that trafficking in persons does not just 
occur in isolated places or specific times, nor does it 
victimize a narrow set of individuals. Trafficking persons is 
all of the conduct involved in reducing someone to, or holding 
them in, a state of compelled service, whether for labor or 
commercial sex. Nothing short of modern day slavery.
    Affecting every country in the world, estimated to 
victimize approximately 27 million men, women, and children, it 
has no place in the 21st century. And every single victim 
deserves our focus and our attention. As Mr. Reichert reminded 
us, these are not statistics. These are people worthy of our 
compassion, deserving of our attention as people, with hopes, 
dreams, and needs, and increasingly, survivors with things to 
teach us if we only would listen.
    Despite the scope of this crime, around the world roughly 
only 40,000 victims of trafficking are being identified each 
year. So when we suspect that there might be a heightened risk 
of trafficking, whether relating to a particular industry, a 
particular migration route, or a major event, we necessarily 
need to ramp up our efforts to confront this crime, to keep 
doing what works. And we need to develop fresh ideas for 
identifying victims, investigating trafficking cases, and 
enforcing trafficking laws, in keeping with Pope Francis' 
exhortation to not look the other way when we see our brother 
or sister who is enslaved.
    In recent years, we have worked with governments and NGOs 
around the world to address these concerns. And if there is an 
overarching lesson we have taken away from these cases, it is 
that efforts to respond to modern slavery need to be 
sustainable and comprehensive, targeting all forms of 
trafficking.
    In many cases, major sporting events not only pose a 
challenge around sex trafficking, they also require massive 
construction projects, creating a demand for cost-effective 
labor and materials. In regions with sizable migrant 
populations, much of this labor force will cross a border at 
least once to reach the job site. Once the event takes place, 
the locations become major destinations for travel and tourism, 
including in the so-called sex industry. At every step of the 
process, the vulnerabilities with which we are all familiar, 
the vulnerabilities to human trafficking.
    And so addressing these risks for these events means 
putting safeguards in place every step of the way. What 
protections exist for the laborers and around the event? What 
methods are being used to screen those who may be victims of 
trafficking, including through debt bondage that resulted from 
paying hefty recruitment fees in their own home countries? How 
are law enforcement personnel and partners in the travel, 
tourism, and hospitality industry being trained to identify 
particular trafficking situations, and not just child sex 
trafficking, but that of adults, of men as well as women.
    These are questions governments should be grappling with 
every day and especially when a major gathering is on the 
horizon. And they are some of the things that we are watching 
for as we approach additional major events, whether the Winter 
Olympics in Russia, the World Cup in Brazil, or the World Cup 
in Qatar in 2022. We will continue raising this issue with 
governments and gathering data to include in our annual 
Trafficking in Persons Report.
    And my prepared testimony addresses these situations in 
greater detail. I would ask that it be included in its entirety 
in the record.
    Mr. Smith of New Jersey. Without objection, so ordered.
    Ambassador CdeBaca. Thank you, sir.
    As we look ahead, the issue of trafficking at sporting 
events underscores one of the biggest challenges we face in the 
struggle against modern slavery generally: The relative lack of 
public data and research on this often hidden issue.
    At this point, when it comes to major sporting events, 
including those here in the United States, much of the 
information we have is anecdotal. Crime reporting statistics 
are painting an incomplete picture, and the handful of reports 
that emerge on this topic at times present contradictory 
findings. So we need to keep gathering data and information 
about this aspect of the crime. Where is it taking place? Who 
is it--the criminals that are driving this enterprise? And what 
is the most effective way to prevent it?
    Because while our top priority must always be getting 
victims out of harm's way and bringing criminals to justice, 
the more we know about the crime, the better we will be able to 
stop it from happening in the first place.
    And we are well equipped to respond to the specific concern 
thanks to the partners that have rallied around the issue: In 
the transportation industry, like Airline Ambassadors and Delta 
Airlines; in hospitality like Carlson and Hilton; across 
government, whether the Department of Transportation; or State 
governments from Indiana to Arizona, Texas to New Jersey; 
partnerships like the 11 orders of Catholic women who worked 
with the Indianapolis hotels via the Coalition for Corporate 
Responsibility for Indiana and Michigan, and the continued work 
that those women have done since 2012.
    The work of all of our partners can help to make major 
sporting events safe for all people. But what is perhaps more 
important is that every person they reach becomes another 
partner in this effort. The knowledge they spread doesn't 
expire when the clock ticks down to zero. Once people 
understand modern slavery, how it touches them, their lives, 
their communities, how to spot it, and who to call if they do, 
that knowledge doesn't go away, just as the human traffickers 
do not go away when the stadium lights are dimmed. And perhaps 
it is that ripple effect that is just as important to stopping 
trafficking at major events. Because it is a 365-day a year 
crime that requires a 365-day a year response.
    As Rachel Lloyd, who founded the New York-based service 
provider GEMS recently wrote, no matter what happens this week 
in New Jersey, she anticipates serving close to 400 girls and 
young women this year in the New York area. And she knows that 
she will need daily food, metro cards, stipends, toiletries, 
clothing, diapers, milk, and funds for education and leadership 
and employment training programs so that they can support and 
empower those young women every day of every year. As more and 
more people and institutions contribute to that response, we 
grow nearer and nearer to our shared goal, a world free from 
slavery.
    Thank you, and I am happy to answer questions.
    Mr. Smith of New Jersey. Thank you very much, Mr. 
Ambassador.
    [The prepared statement of Mr. CdeBaca follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. Ms. Odom.

  STATEMENT OF MS. MARIA M. ODOM, CHAIR, BLUE CAMPAIGN, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Odom. Thank you, Chairman Smith, members of the 
subcommittee, Congresswoman Wagner, and Congressman Reichert. 
Thank you for the opportunity to appear before you on behalf of 
the dedicated men and women of the Department of Homeland 
Security to discuss our collective efforts to combat human 
trafficking.
    As Chairman Smith indicated, we are here today painfully 
aware that human trafficking is a form of modern day slavery. 
It is a crime that involves the exploitation of someone for the 
purposes of compelled labor or commercial sex through the use 
of force, fraud, or coercion.
    Every year, millions of men, women, and children worldwide, 
including in the United States, are victims of human 
trafficking. DHS shares responsibility with the U.S. Department 
of Justice for investigating human trafficking, arresting 
suspected traffickers, and protecting victims.
    To better coordinate our efforts, in 2010, the department 
established the Blue Campaign. We know that fighting the hidden 
crime of human trafficking is a collaborative effort, and DHS 
depends on strong partnerships with other Federal agencies, 
foreign governments, law enforcement, first responders, the 
faith-based and community partners, as well as members of the 
private sector.
    The Blue Campaign marshals resources from every corner of 
the Department of Homeland Security, from across the Nation and 
around the globe. DHS and the Blue Campaign focus on prevention 
through increased community education, a strategic public 
service awareness campaign, and sector-diverse partnerships. We 
focus on protection of victims through coordination of 
comprehensive victim services and prosecution of those 
responsible for this heinous crime through ICE's investigations 
and our targeted training of State, local, and tribal law 
enforcement partners.
    Today, I would like to share information with you about our 
Blue Lightning Initiative. Blue Lightning is a voluntary 
training program initiated by DHS with the support and the 
leadership of U.S. Customs and Border Protection and the 
Department of Transportation. Other collaborators of our Blue 
Lightning Initiative include Immigration and Customs 
Enforcement (ICE), the Human Smuggling and Trafficking Center, 
the Transportation Security Administration, the Federal Air 
Marshals, the Federal Aviation Administration, NGO partners, 
and private industry.
    The core of Blue Lightning is the partnership with the 
airline industry. Airline personnel can be helpful in 
identifying potential victims, and reporting suspected human 
trafficking events to law enforcement. Beginning with ticket 
agents, who routinely handle travel documents and question 
passengers as part of their check-in and boarding, and 
continuing with flight crews, these employees have extended 
time with travelers and opportunities for interactions. They 
are skilled observers. And with the appropriate training, they, 
too, can be the front line against human trafficking.
    Blue Lightning provides educational materials for U.S. 
commercial airline employees. Once trained, airline personnel 
become a force multiplier in the fight against trafficking, 
enabling DHS to remove human trafficking victims from harm, 
while helping to disrupt occurring and ongoing potential 
trafficking events. Participating airlines voluntarily 
integrate the Blue Lightning training module into the airline's 
initial or refresher training for flight attendants, customer 
service representatives, and other personnel.
    Blue Lightning training includes a computer-based training 
module which provides a basic overview of trafficking, an 
outline of the indicators of human trafficking, and lessons in 
how to report human trafficking through the use of flight deck 
communications in coordination with the Federal Air Marshals 
Service. Airline personnel may also submit tips and report 
potential human trafficking events to Federal law enforcement 
via ICE's phone and online tip lines. These real-time reporting 
mechanisms provide law enforcement officials with needed time 
to coordinate an appropriate response before the plane arrives.
    Since the launch of Blue Lightning this past June, we have 
entered into agreements with five participating airlines, 
resulting in the training of tens of thousands of aviation 
employees in less than a year. Since its launch, CBP has 
received 13 suspected human trafficking tips, all of them 
through each of the Blue Lightning reporting mechanisms. The 
protocol is working. As professional stewards of flight safety, 
aviation personnel are important partners in our Government's 
efforts to end human trafficking and protect lives.
    We look forward to our continued work with the airlines, 
and we look forward to working with all of you. We thank you 
for your commitment to this important issue. Thank you for your 
time today. My testimony provides additional information. We 
are always happy to supplement it. And I look forward to any 
questions you may have.
    Mr. Smith of New Jersey. Ms. Odom, thank you very much for 
your leadership and for your testimony today.
    Ms. Odom. Thank you Chairman.
    [The prepared statement of Ms. Odom follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. I would like to ask first of all, 
Mr. Ambassador, if you could, I know that you interact and not 
only travel but receive delegations probably almost every day. 
I know I meet with delegations often, legislative as well as 
executive branch people. And I always give them the TIP Report, 
whatever our best practices up to that date are, whether it be 
for the military, for any aspect, including trying to get this 
situation awareness campaign regarding airlines and other means 
of transportation across to them.
    And I am wondering, you know, since you especially meet 
with the Tier 2 Watch List folks, the Tier 3 countries, what 
has been the reaction from those TIP leaders who very often are 
very deeply committed themselves, often up against a very 
reluctant executive branch or prime minister or lethargic 
Parliament or Congress to really take on what the Blue 
Lightning Campaign is doing and what, you know, can actually 
save lives? Are they responsive to it?
    Ambassador CdeBaca. I think, you know, one of the things 
that we have seen typically with the governments that we talk 
to as far as specifically the transportation industry, but I 
also try to raise the issues around the hospitality industry as 
well, knowing that there is often not the same posture of the 
government vis-a-vis that. You know, you often have government 
ownership of rail or even airlines.
    You know, I think that it is an issue that governments are 
starting to come to. I think we have moved beyond the blank 
stare response with a few of the governments. I think that one 
of the hardest things, of course, is that often the countries 
that are on Tier 3 and Tier 2 Watch List, as you have 
mentioned, are countries that don't necessarily have the 
strongest intergovernmental structures.
    And so what we have seen, for instance, in the United 
Kingdom, where we have got some of the airlines that are 
looking at some of these issues, as well with the Virgin 
Atlantic specifically, and others, is that those are very 
functioning governments as far as ministries that truly do 
regulate their transportation, ministries that are able to talk 
to each other and to bring in the anti-trafficking ethos of the 
home ministry, of the justice ministry, of the foreign ministry 
into these other parts of the government.
    And frankly, we do see many of the Tier 3 and Tier 2 Watch 
List countries as not having as robust of a conversation across 
their ministries. So one of the things that we have been doing 
to try to start that up is to very much use the model of the 
senior policy operating group, the President's interagency task 
force, et cetera, and not only across the agencies, but the 
things that we have seen, for instance, at DHS and others, who 
have done an internal survey across all of their components to 
drive these issues out.
    And I think that that is where we are seeing the 
difference. I can't say that we have seen national airlines or 
national railways or others ramp up their efforts the way that 
we have seen here in the United States. But I think it is 
something that we are going to continue to push out to our 
foreign counterparts.
    Mr. Smith of New Jersey. Can I just ask you, are you 
satisfied with the State-Federal cooperation? For example, on 
Friday, the U.S. Attorney General for our region in New Jersey 
joined the State Attorney General and other interested parties 
at a Friday rollout of many of the things they are trying to do 
to stop trafficking relative to the Super Bowl.
    Do you find that there is a good cooperation with States, 
not just foreign states but also in the United States, 
especially as it relates to this Super Bowl?
    Ambassador CdeBaca. I think that we have certainly seen 
that. And I think that New Jersey is a good example of that.
    Frankly, we have seen that around a number of the last 
Super Bowls. I think that some of that actually flows from the 
prioritization of this in a bipartisan fashion by the National 
Association of Attorneys General. I think this was something 
that we certainly have seen in the last 3 or 4 years. And the 
leadership among the attorneys general often then has been able 
to piggyback on that. So if you see the leadership that 
Attorney General Abbott, for instance, had in Texas, that was 
very much in keeping with the work that he was doing on the 
Pillars of Hope campaign of the National Association of 
Attorneys General.
    So I think it is starting to come together. What is 
interesting is it is coming together more through political 
will and commitment on the part of both State and Federal 
actors than it is in the way that other projects sometimes come 
together. As you know, there is a very successful set of almost 
pilot project local task forces, the ACT teams, that the 
Department of Justice puts out. But that is not in every 
judicial district. That is not in every congressional district. 
And it is not in every State.
    And so I think that what we have seen is that kind of 
energy very much comes from the actors involved rather than 
necessarily the funding streams.
    Mr. Smith of New Jersey. Let me ask you, Ms. Odom, and I 
will just ask a few questions and then yield to my colleagues 
and submit a number of questions for the record.
    And you, too, Mr. Ambassador, you might want to answer 
this.
    At previous Super Bowls, we have seen social media 
advertisements for prostitution increase in the lead up to the 
games. We know that Twitter, as I mentioned before, and again 
talking to some individuals before this hearing, we talked 
about Twitter at great length. Backpage, which was mentioned 
very strongly by our former Ambassador to Lichtenstein. Are you 
satisfied we are making a difference with the social media? 
Which we have seen it with Craigslist.
    Time and again, Members of Congress, including myself, have 
written to the Craigslist founder, and they are unmoved. There 
needs to be prosecution, and vigorous prosecution it would seem 
to me, for being a part of an absolutely horrific, scandalous, 
and illegal operation. Your thoughts on that.
    Secondly, Ms. Odom, if you could speak to how can we 
accelerate the buy in from the other airlines? You know, Delta 
is here. We will be hearing from them shortly. And I think it 
is very significant that the wife of the president of Delta is 
here with us as well, Anna Bastian, I hope I am pronouncing 
that correctly. Underscoring the commitment of that airline.
    Our hope was that all the airlines would be here. And I am 
not going to bash them. But please join the effort. The time 
has come. What are you finding? How do we accelerate that 
effort to get them on board?
    Ms. Odom. Thank you, Mr. Chairman.
    I believe with regards to monitoring social media and 
incorporating the evaluation of social media activity as part 
of the investigative efforts is part of what ICE HSI continues 
to do. I believe that they are looking at it in a holistic way. 
And with regards to the Super Bowl preparation, for example, 
their outreach and training efforts as part of the Newark task 
force have proven to be very helpful. And their goal is to 
conduct their activities, all of their law enforcement 
activities, with a heightened level of awareness and screening 
for human trafficking.
    So I am satisfied that their engagement at the State and 
local level has been robust. The ICE HSI special agents in 
charge have shown a commitment, energy, and enthusiasm for 
working with their State and local counterparts. And I believe 
that is a key part of our work is to train, to educate, to be a 
resource to the State and local counterparts.
    And I am satisfied that that is happening. With regards to 
the expansion of the Blue Lightning Initiative to include other 
airlines, our partners at CBP continue very active efforts to 
educate, to visit with, to share information about Blue 
Lightning and the training materials that we continue to 
generate with the support of the Federal Law Enforcement 
Training Center with other airlines. I am satisfied that their 
efforts are very meaningful.
    And I hope that when I come back next time, I can report on 
some progress and we can have more airlines. I believe hearings 
such as this one are important, because it does tell the other 
airlines what their counterparts are doing, how they are 
engaging and training their workforce, and why it makes a 
difference.
    So I think this hearing is very important and I thank you 
for holding it.
    Mr. Smith of New Jersey. I would respectfully suggest 
nothing sharpens the mind of a corporation or an individual 
more than a deadline. A deadline to try to have everybody on 
board might be helpful as a means to that end. Say everybody on 
board by the end of 2014.
    Ms. Odom. Thank you.
    Mr. Smith of New Jersey. Just a thought.
    Ambassador CdeBaca. One thing that I would like to respond 
to, Mr. Smith, on the issue of the airline efforts, I think 
that with consolidation, hopefully, the American-U.S. Air 
relationship will be able to extend in the good work of Airline 
Ambassadors, which has done so much of its good work coming out 
of the relationships from the American Airlines staff who 
founded that organization.
    But I think you are right, it is that notion of something 
more formal. We actually I think would like to go even one 
further, which is after we see that kind of training, as you 
suggested, perhaps a universal or company-wide training by the 
carriers.
    Then starting to look at the other aspects. The Executive 
order that President Obama issued on government procurement, 
for instance, is in its final stages, with the notice and 
comment period having closed at the end of December, which 
basically is putting out the notion that if somebody wants to 
do business with the Federal Government, they need to have 
standards about tracking their supply chains, they need to have 
zero tolerance policies against their people engaging in sex 
trafficking and facilitating those things.
    And I think that that is one of the things that we are 
going to want to talk to the carriers and others about as well, 
which is making sure that folks have the skills to recognize 
and interdict and make the recommendations and the referrals to 
law enforcement if they see something happening in the 
equipment.
    But also where is that shrimp being bought? Where is the 
cloth on the seats being sourced from, et cetera? Looking at 
the entire business model of the transportation industry and 
what kind of footprint it has on the overarching issues of 
modern slavery around the world.
    Mr. Smith of New Jersey. Mr. Weber?
    Mr. Weber. Ms. Odom, you said that there were 13 tips from 
the airlines, and then you said there were five participating 
airlines.
    Ms. Odom. Yes, sir.
    Mr. Weber. And you may have this in your testimony, and I 
haven't looked at it, what five airlines are those?
    Ms. Odom. Sure. We have Allegiant Air, Delta Airlines, 
North American Airlines, and Silver Airways, as well as JetBlue 
Airways Corporation.
    Mr. Weber. Okay. As we were saying when you came up to 
introduce yourself, you know, Texas has that dubious 
distinction, as I said earlier, of having a lot of human 
trafficking. So we would love to get Southwest Airlines and 
American Airlines. Are you proactive in reaching out to them 
and saying, Please get on board with this?
    Ms. Odom. Yes, sir, we are. And Secretary Napolitano sent a 
secretarial letter on the Blue Lightning Initiative to 93 
airlines, including Southwest Airlines. And Customs and Border 
Protection, who is the agency that is leading the Blue 
Lightning Initiative, in collaboration with the Blue Campaign, 
constantly reaches out to the airlines. So they are very active 
in following up with all 93 carriers that received that initial 
letter from the Secretary.
    Mr. Weber. Have they responded to you at all?
    Ms. Odom. There is an ongoing dialogue back and forth. And 
there are some agreements in the works which we are not 
prepared to announce yet because they are not finalized. But I 
think it is promising. We are not talking about dozens, but I 
think it is small progress, and we are monitoring our program 
very carefully, 6 months old, and we are very satisfied with 
the airlines that have joined so far in motivating airlines to 
do so.
    Mr. Weber. Well, I would like for my office to write a 
letter to Southwest Airlines, American Airlines, and get 
involved in this and say, Hey, you all need to get on board 
with this, if that will help.
    Ms. Odom. That would be very helpful, thank you.
    Mr. Weber. If you get in touch with our office.
    And as I was saying when you all were up here at the front, 
Mr. Chairman, in Texas, we have the TABC, Texas Alcohol Bureau 
of Control, and they can go into a lot of these bars and 
things. And the great thing in Texas is they don't need a 
warrant. They can go in, because of State law, to review 
alcohol purchase records, and to make sure there is no underage 
drinking going on, and there is no after hours drinking going 
on. And so they can basically show up unannounced.
    So I was encouraging Ms. Odom to incorporate that, because 
it is a great, great tool. Their representatives can go in 
there and get their eyes there. And you talk about somebody 
trained to recognize human trafficking, these are individuals 
that are trained and can spot that. And then they don't have to 
have a probable cause, they are there. And then when they see 
it with their eyes, then they have got the probable cause. So I 
would encourage you all to try to form those partnerships. I 
don't know how it works in other States, but at least in Texas 
it works well.
    I will leave it at that for the time being. Thank you.
    Mr. Smith of New Jersey. Ambassador Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, very much. I am also 
interested, Ms. Odom, and thank you for your testimony, thank 
both of you for your fine testimony and work on this, any other 
modes of transportation, can you report at all on rail, on bus, 
car, caravan, what--is there any work being done in that 
regard?
    Ms. Odom. We were--thank you, Congresswoman.
    We recognize that we need to expand this initiative to 
other modes of transportation. Our partners at the Department 
of Transportation are in very active and current conversations 
with us as we continue to draw strategies to reach out to the 
bus and the--the bus--especially the bus industry, the cruise 
lines and other industries that we believe should be part of 
this effort. We are not prepared to report on any progress 
there, but I can leave you with my commitment that we are 
working very hard to expand this initiative to other modes of 
transportation.
    Mrs. Wagner. Great. Thank you. That is great to hear. And I 
would tell the gentleman from Texas that I would also be 
pleased to help out on a letter to some of the other airlines. 
We certainly have interest in the St. Louis regional airport 
and travel area.
    You know, we have talked a lot here today about awareness, 
about education. I certainly legislatively am going to look at 
some prosecutorial things, some law enforcement things, 
resources, but much of this is us pulling together as a team. 
Awareness and education is absolutely clear, and we have seen 
this, I think, in the transportation industry in many 
instances, certainly in the hotel and convention industries, 
certainly among so many of our flight attendants and others. We 
need to talk about the corporate community, I think, somewhat, 
too. And I would encourage the chairman and perhaps other 
committees also to talk about awareness and educational 
policies and principles with different HR departments of 
corporates. We should have corporate partners that are involved 
in this. Oftentimes, it is those corporations that are sending 
their staff, their employees, their teams down to these 
conventions. And I know that there are sensitivity trainings 
that go on from HR departments on multiple different issues, 
but certainly including one on sex trafficking and human 
trafficking at all levels would be very, very important in this 
area.
    Also, I have spoken with some educators and school 
teachers. You know, there are also reasons why, at a counselor 
level, especially with these young girls, as I said, the 
average age, 13 to 14, girls and boys, I will say, that 
education among counselors to recognize the victims, to talk 
about how they operate. And we visited a little bit, Ms. Odom, 
about that earlier today and how quickly these predators can 
prey on these young, innocent children who then find themselves 
in a vicious cycle of sex slavery. So I would encourage us as 
legislators and as people involved in this cause to continue 
with that kind of awareness and education.
    And I, like the chairman, also agree and believe in 
deadlines and pledges and holding folks accountable through 
actual activity and actionable items, so I hope that we can 
also try to do this. It is in all of our best interests. I 
think that so often, as my colleague, Congressman Meadows said, 
until someone brings it to their attention, it is hiding in 
plain sight and people just don't realize how prevalent this is 
in our society in the United States of America, and certainly 
across the world. So I thank you.
    I yield back my time.
    Mr. Smith of New Jersey. Thank you.
    Mr. Meadows.
    Mr. Meadows. Thank each of you for your testimony. 
Certainly to hear about the Blue Lightning program is something 
that is encouraging. I guess my only caution would be that when 
we develop a program, there are certain companies who take it 
and run with it and are passionate about it. There are others 
who put it on as a resume, you know, that we are part of this.
    And so what you could do, Ms. Odom, to highlight those who 
take it on passionately, whether that is recognizing them 
annually, whether that is applauding their efforts, I want to 
certainly applaud Delta Airlines, not only for their 
involvement, but for them being here today. As a Member of 
Congress who lives less than 2\1/2\ hours from Atlanta, they 
are a great corporate citizen, and I think this goes a long 
ways. And I know as someone who travels quite a bit, you know, 
if I have a choice between someone who is being a good 
corporate citizen and someone who is not, I will certainly make 
those choices, financial choices. So to the extent that you can 
do that, I would encourage that.
    Ms. Odom. Congressman, I am happy to do that. What we have 
seen through the voluntary engagement of airlines with the Blue 
Lightning Initiative has been tremendous corporate leadership. 
I will go back and discuss with our team and our partners how 
to best celebrate corporate commitment and the deployment of 
resources to fighting human trafficking. I think that is an 
excellent idea. I would like to be able to highlight their 
passion in a way that serves to inform other airlines of these 
efforts. Thank you.
    Mr. Meadows. And let me follow up on one other area, 
because it really gets to the heart of training for TSA. We are 
doing this with regards to the private sector and yet in 
talking to some of the folks at TSA, and I am not meaning this 
to be derogatory, but in talking to them, their training on 
this particular aspect is at best minimal and many times non-
existent. So what can we do either legislatively or to 
encourage policy to make this a critical component for those 
TSA that see every single passenger? You know, we have to go 
through that. And, again, it is not meaning to be critical. I 
am looking for solutions here.
    Ms. Odom. Thank you, Congressman. I think this is a very 
good question, because we have been discussing, I have in 
preparation for this hearing and trying to understand how our 
own workforce at DHS has made progress in receiving training, 
our very own training modules on indicators of human 
trafficking.
    I learned that back in 2012, TSA implemented our basic 
indicators training and achieved 100-percent training of the 
Federal Air Marshals. They also achieved 98-percent training of 
the TSA workforce using the online learning center, but the 
numbers have declined, and I will go back and engage with TSA 
to find other operationally reasonable and feasible ways to 
continue to train their workforce.
    We receive support from TSA in the way of having staff in 
the Blue Campaign assist us coming from TSA, and they're good 
Ambassadors, from their agency to the Blue Campaign. Not all of 
the Blue Campaign training models have been adopted by TSA; 
some have, but not all seven. So we continue to work with all 
of the department components at DHS to make sure that they 
continue to receive training. Right now it is mandated for all 
law enforcement personnel, and we have trained an incredible 
number of folks in our workforce across the country. So it is a 
work in progress. I appreciate the concern. We are very much 
aware of it, and we continue to make efforts.
    Mr. Meadows. What I would ask from you, then, and not in 
terms of your oral testimony today, but I would ask for you to 
submit to this committee, if you would, are three 
recommendations on how we could augment that training for our 
TSA employees, and the second part of that is, is what either 
legislatively we can do as Members of Congress to either 
require or encourage that particular training to happen. So if 
you would submit that for the record, I would greatly 
appreciate it.
    Ms. Odom. We will. Thank you.
    Mr. Meadows. Mr. Ambassador, I want to say thank you so 
much for continuing to work on this particular area. You have 
been here before this committee before. It is something that 
not only is near and dear to my heart, but as you have heard 
the passionate plea from Ms. Wagner to my left, it is something 
that internationally we are needing to address as well. I think 
if we focus on some of what is happening in our own backyard to 
highlight it, it helps us highlight it internationally. I know 
there are a number of Ambassadors' wives who are working right 
now on this particular issue here in Washington, DC.
    It was a great encouragement to me to start to hear some of 
that and something my wife has been able to team up with them 
on, but I guess specifically as it relates to something that 
you mentioned in terms of Federal contracting, some of the 
other areas we need to do, how can we make more teeth on the 
economic side of that, whether it be with trade partners or 
whether it be individually? What can we do to highlight this 
issue?
    Ambassador CdeBaca. Well, I think that, and my former 
prosecutorial ways may be coming to the forefront here, but I 
do think enforcement is one of the most important things. And I 
think that, you know, what we have seen typically is we have 
rules in the United States that date back to the 1930s on the 
importation of goods that are tainted by forced labor and other 
things, and yet those often don't get enforced. And it is not 
because our folks in the customs realm are trying not to, it is 
that there are--is my understanding, there are some legal 
issues out there as far as the consumptive demand requirement 
and some other things.
    I know that Senator Grassley has wrestled with this a 
little bit since he was in a garment factory in Jordan a couple 
years ago. And I think it is something that if there were to be 
a little more energy around that on both sides of the building, 
that we probably would respond and be able to sit down and have 
some ideas.
    I think that is--you know, one of the things that I know 
from working cases when I was at Justice is that nothing 
focuses the mind of an importer quicker than a shipping 
container that is not being let out of the port, and I think 
that that is something that we could look at.
    I think it is going to take engagement. It is going to take 
the development of industry standards. It is going to take not 
only the enforcement but then also the development, just like 
we have seen with the Foreign Corrupt Practices Act, of a 
practice area in the law firms and others who are doing the 
compliance advisory work, that are doing the risk analysis. If 
right now what we have is encouraging them to do well, then it 
is not risk analysis. At that point, it looks like good 
corporate citizenship, or it looks like corporate social 
responsibility, all of which are important, but we need to 
bring the folks from the compliance and the risk analysis parts 
of the companies to bear as well simultaneously.
    Mr. Meadows. Well said.
    And I yield back, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you, Mr. Meadows.
    Chairman Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    First of all, Ms. Odom, you mentioned there is a mandated 
training for law enforcement. Do you know if the curriculum in 
the academies for those law enforcement personnel includes this 
topic? Is it academy training?
    Ms. Odom. Thank you, Congressman. It is training that has 
been designed by a human trafficking expert at the Federal Law 
Enforcement Training Center. In fact, that individual is 
detailed to the Blue Campaign on a full-time basis and helps us 
develop our training, which is what is deployed to the various 
components across DHS.
    Mr. Reichert. So, around human trafficking, they get 
academy training and then what we used to call in our sheriff's 
office in Seattle was retread, which is a yearly update of all 
the laws and additional training sessions. Do you have 
something like that in place?
    Ms. Odom. We have initial training for law enforcement 
personnel, Congressman, and then, in addition to that, we 
continue to develop training videos and other Web-available 
resources. Right now, we are producing 11 training videos, many 
of which are geared to law enforcement. They can be used as 
rollcall videos to be shown right before a shift. They are also 
produced at rest stops around different sites where you would 
ordinarily see traffickers abusing their victims. So we have 11 
new training videos that are being produced as we speak. So we 
are constantly trying to refresh the training, but we are also 
trying to create refresher trainings for those individuals who 
have taken initial training as well as resources that can be 
deployed to State and local law enforcement for those folks who 
have not had initial human trafficking awareness education yet. 
So we are trying to create different levels of training for 
folks who are more experienced and those who are newcomers to 
this particular issue.
    In addition to that, ICE, HSI special agents in charge 
across the country are also training at the State and local 
level, and they are bringing to the table the resources of the 
local HSI office, connecting with State and local law 
enforcement and conducting training. Also along with our NGO 
partners with USCIS, who also comes to the table to teach law 
enforcement about relief available to foreign victims of 
trafficking in their role as well in combatting human 
trafficking through the authorities that we have to provide 
relief to those individuals.
    Mr. Reichert. I think those are wonderful efforts, and it 
goes to Mr. Meadows' question as to how you might augment 
training within your organization. And I don't know what sort 
of time is allocated in the academy, I went to the academy a 
long time ago. And those things that are important to the 
community and important to the police department or the 
sheriff's office are those things that are trained and taught 
right upfront. And if you have a segment on human trafficking 
in your academies, I think that is a robust training academy 
package, I think it really sends a strong message to new 
employees that this is indeed an important issue for this 
country.
    Secondly, I am really excited to learn about the efforts 
that everyone has put forth in addressing all the modes of 
travel that people use in human trafficking. So I think back to 
1982, and of course, the bus system was widely used back then. 
I spent a lot of time at a bus station in downtown Seattle. I 
won't name the name, but it was a place where they met and 
arranged rides. Of course, cars were another, but even back in 
the 1980s, the travel from Seattle to San Francisco to Los 
Angeles to San Diego, up to Vegas, to Reno, back to Seattle 
again, up to Anchorage. I traveled to New York. I spent 2\1/2\ 
weeks back here on the east coast tracking down a couple of 
pimps and two young ladies that were with them over--one of the 
cases related to the Green River case. I ended up in New York 
and Buffalo, back to New York and then in Atlantic City and 
down to Reading, Pennsylvania, and all the way back up to 
Niagara Falls, where we finally caught them. So I just can't 
imagine in today's world how quickly they are able to move. And 
this is such a critical part of addressing this problem, so I 
am appreciative of the efforts that you have put forth there. 
It has to be done.
    The education and the training has to be done, but the most 
important thing, I think, is prevention, and I think everyone 
in this room recognizes that. And in the subcommittee that I 
chair on Ways and Means, we have been focusing on a particular 
group of young people in the foster care system who are just 
vulnerable kids, and I think I touched on that a little bit in 
my opening statement. One of the things that we learned in that 
hearing is that a large percentage of children who have been 
sexually trafficked had come from the foster care system. Of 
the children reported missing who are likely sex trafficking 
victims, 60 percent, 60 percent were in foster care or in group 
homes when they ran away, and I think we can make a huge 
difference in this arena.
    So my question is for Ms. Odom. So what is the Department 
of Homeland Security doing? Are you working with child welfare 
agencies, DSHS and others, to address the foster care issue and 
their likelihood of ending up in the human trafficking world as 
victims?
    Ms. Odom. Thank you, Congressman. I believe personally from 
listening to the testimony of survivors during that hearing, I 
can share that one thing that stayed with me was the fact that 
survivors reported that they often saw their pimp as the one 
stable person in their lives, because they went from family to 
family, and that was home to them, that person for a long time 
meant stability for them. And I thought that was such a tragic 
statement; it stayed with me. I believe it is key for us to 
address children in foster care.
    The Blue Campaign has a long list of audiences that we are 
trying to reach, and that includes judges. It includes first 
responders. It includes faith-based communities, all of our 
partners, survivor networks, and we are very busy trying to 
create effective strategies so we are reaching all those 
audiences, and this is one audience that we can do better in 
reaching. Our partners at HSI recognize that the need is there 
to engage with social services providers, with folks who are 
working in the foster care system to understand the problem 
better, to understand the data, to understand the issue and 
find a way to investigate and bring these individuals to 
justice. I look forward to working with our colleagues at HSI 
to better understand their strategy to reach and rescue victims 
that are trapped in the foster care system. They are currently 
evaluating the information. They want you to know that they 
know it is a problem, that they are actively putting their arms 
around it and trying to figure out how to deploy resources to 
address this particular population.
    I would be happy to respond to you later with their 
strategy for reaching out to children in the foster care 
system. I will also be happy to report back to you on what 
activities the Blue Campaign will develop around outreach, 
education and engagement with the foster care community. We 
still have a long ways to go in that area, but we have so many 
audiences that we are trying to reach as well, and I think we 
are making progress.
    Mr. Reichert. Well, I can tell you are passionate about 
this issue, and you have a lot of compassion, I can see that.
    Ms. Odom. Thank you.
    Mr. Reichert. I can hear it in your voice and see it in 
your face. My subcommittee staff and I would be happy to work 
with you on this issue. We will be introducing legislation here 
within the next few weeks regarding human trafficking and 
foster care, so we would look forward to working with you.
    And thank you, Mr. Chairman, for the time.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman.
    Before I go to the next panel, I would just like to ask 
Ambassador Luis CdeBaca if you would, with respect, ask U.S. 
Attorney General Eric Holder if he would really initiate an 
effort to crack down on Twitter, Backpage, Craigslist and these 
other social media that are a conduit for this terrible 
exploitation of women. Again, in a conversation with Jonathan 
Marino earlier, he went into a great detail as how to Twitter 
has exploded on the scene with trafficking promotion. So if you 
could bring that back to the Attorney General of the United 
States and ask him to crack down, deeply appreciate it.
    Ambassador CdeBaca. I will certainly relay that, sir. And I 
would love to hear more about the information on Twitter, and 
perhaps that is something that we can talk about directly with 
Mr. Marino, but if not, I hope that we can circle back through 
your office----
    Mr. Smith of New Jersey. Absolutely.
    Ambassador CdeBaca [continuing]. As necessary.
    Mr. Smith of New Jersey. Thank you.
    And thank you both. We will have other questions we will 
submit for the record. I appreciate, we all appreciate your 
very extraordinary work, and I thank you again. We thank you.
    Ms. Odom. Thank you.
    Ambassador CdeBaca. Thank you.
    Mr. Smith of New Jersey. I would like to now welcome our 
second panel to the witness table, beginning first with Ms. 
Polly Hanson, who is the chief of police for the National 
Railroad Passenger Corporation, better known as Amtrak. She has 
been in this position since December 2012. Chief Hanson spent 
27 years with the Metro Transit Police Department right here in 
Washington, where she advanced up through the ranks from police 
officer and served as chief of police. She then worked at the 
Metropolitan Police Department in DC as the executive director 
of the Strategic Services Bureau and then as director of the 
Office of Law Enforcement and Security at the U.S. Department 
of Interior.
    We will then hear from Ms. Nancy Rivard, who is president 
and founder of Airline Ambassadors International, which seeks 
to provide humanitarian aid to children in need and 
international development and relief to underprivileged 
communities around the world. Nancy has expanded Airlines 
Ambassadors International to include 6,000 members, including 
some outside the airline industry. She has started the Airline 
Trafficking Initiative at Airline Ambassadors International and 
created a training program that teaches airline personnel to 
identify and properly report potential cases of human 
trafficking. There is no way, having worked with her so closely 
for several years, that I or anyone else can overstate her 
tenacity, commitment, and effectiveness.
    We will then hear from Ms. Carol Smolenski from ECPAT-USA. 
She is executive director of the group End Child Prosecution 
and Trafficking USA and has been working in the field of 
children's rights for over 20 years. She has overseen the 
development of numerous projects aimed at stopping the 
commercial sexual exploitation and trafficking of children, 
including recent work in New Jersey and New York with the hotel 
industry in preparation for the Super Bowl. She has presented 
testimony in venues ranging from the New York City Council, to 
Congress, and to the United Nations. Her work over the years 
has been very informative and helpful as we have crafted laws 
here, including the Trafficking Victims Protection Act of 2000 
and the reauthorizations that followed. Her research has been 
very timely and accurate, which has helped us to really craft 
strategies, which she helped to craft as well. So thank you so 
very much.
    We will then hear from Ms. Letty Ashworth, who is general 
manager of global diversity at Delta Airlines, leading in 
Delta's global strategy to further develop and advance an 
efficient, effective, and diverse workforce reflecting an 
increasingly interconnected world. She works closely with 
various Delta business units, including finance, commercial, 
and supply chain in their efforts to recruit diverse talent. 
She oversees the company's seven employee network groups, the 
RISE mentoring program, and the Delta Wrenched Hearts support 
group. She has served on numerous boards, including the 
Globalist Business Coalition Against Human Trafficking, where 
she chairs the human trafficking subcommittee.
    Finally, we will hear from Ms. Holly Smith, who is a 
survivor of child trafficking and an advocate against all forms 
of human trafficking. She has submitted joint testimony to 
Congress and addressed the Virginia General Assembly. Ms. Smith 
has appeared on the Dr. Oz show and was featured in 
Cosmopolitan magazine. In addition to working as a training 
consultant for the AMBER Alert program, she works with 
survivors and anti-human trafficking organizations across the 
country. The film, ``Finding Faith,'' is based on portions of 
Holly's story. When she isn't speaking, she writes a weekly 
column with the Washington Times Communities and working on a 
book about child sex trafficking and commercial sexual 
exploitation of children in America.
    Chief Hanson, if you could begin.

   STATEMENT OF MS. POLLY HANSON, CHIEF OF POLICE, NATIONAL 
            RAILROAD PASSENGER CORPORATION (AMTRAK)

    Chief Hanson. Thank you, sir.
    Good afternoon, Chairman Smith and other distinguished 
members of the committee. Thank you for the invitation to speak 
today. As stated, my name is Polly Hanson, and I am the chief 
of the Amtrak Police Department.
    Like you, we at Amtrak are deeply concerned about the 
problem of human trafficking, and I am honored to appear today 
on behalf of Mr. Boardman, our CEO and president, and the men 
and women of Amtrak and our police department. We are a police 
department of 500 sworn and civilian personnel stationed at 
more than 30 locations in 46 States, tasked with ensuring the 
safety and security of Amtrak's passengers, 20,000-plus 
employees, and substantial infrastructure.
    The Amtrak police have always taken their responsibility to 
ensure every passenger has a safe and secure trip every day 
very seriously, and our commitment is supported by the 
partnerships that we have at State, local and Federal levels.
    Our work with the Department of Homeland Security is 
multifaceted, ranging from collaboration with TSA, Federal Air 
Marshals who serve as VIPR teams at stations across the country 
and an initiative with the Department of Homeland Security 
about human trafficking.
    Our participation in the initiative to prevent human 
trafficking began on April 5th of 2012, when DHS and the 
Department of Transportation formally requested a partnership 
with Amtrak that involved training and employing awareness 
about this important issue. In response to this request, all 
Amtrak police officers, train service, onboard service, station 
managers and their frontline employees were given training. 
Amtrak police officers were provided with training on human 
trafficking that involved the DHS training video and briefing 
materials developed by the Federal Law Enforcement Training 
Center. To train the larger workforce, we utilized the DHS 
human trafficking general awareness computer-based training 
program. We felt it was important for our frontline managers to 
take this training so they could brief and provide information 
to their employees who work directly with our passengers. 
Printed training materials were also distributed and discussed 
with frontline employees during job briefings and at our safety 
meetings.
    Following this initial phase of employee training, the 
computer-based training program and training materials were 
delivered to all our remaining employees through a company-wide 
employee communication managed by Amtrak's Corporate 
Communications section.
    We have also participated in the Blue Campaign and DHS 
Council on Combating Violence Against Women stakeholder event 
that was held at the DHS Office for Civil Rights and Civil 
Liberties in Washington, DC, in August 2013, and we continue to 
partner with DHS on the following: We are working with the 
Office of the Secretary U.S. Department of Homeland Security 
staff to develop a second round of human trafficking training 
material for Amtrak employees. The Amtrak Police is working 
with the Office of the Secretary U.S. Department of Homeland 
Security and the Department of the Transportation Office of the 
Secretary of Transportation staff to develop co-branded posters 
that meet the requirements of the various State-level human 
trafficking campaigns. Amtrak will soon display, in fact, I am 
told it is supposed to be this afternoon, human trafficking 
videos on the television screens in all our stations, or the 16 
that have them.
    In addition to those efforts, we have been partnering with 
the U.S. Border Patrol, and beginning next week, there will be 
a 7-minute video on security and safety airing at the locations 
that where we have the TV screens, and it pertains to cross-
border travel into Canada and will include a segment on human 
trafficking.
    Further, we are also an active partner with the FBI's law 
enforcement online network, and we recently distributed an 
intelligence briefing specific to human trafficking concerns 
related to the Super Bowl.
    I want to close by reiterating our commitment to helping 
DHS and our law enforcement partners in the community to 
address this serious problem. While we are a transportation 
provider, the Amtrak Police Department is committed to working 
with our transportation community to prevent trafficking at a 
very vulnerable point, which is when people are in transit. 
With a strong workforce of well-trained law enforcement 
professionals who thoroughly understand our operations, we are 
working to ensure that our response is effective and adapts to 
both changing criminal tactics and identified law enforcement 
best practices.
    I want to assure you that our president and CEO, Mr. 
Boardman, strongly supports our participation in these 
initiatives, as I do, as a part of Amtrak's mission for safety 
and security of our passengers every day.
    Thank you again for the opportunity to testify, and I am 
happy to answer questions later.
    Mr. Smith of New Jersey. Thank you, Chief Hanson, so very 
much for your testimony.
    [The prepared statement of Chief Hanson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. I would like to now go--we will go 
from left to right, your right to left.
    Ms. Rivard.

 STATEMENT OF MS. NANCY RIVARD, PRESIDENT AND FOUNDER, AIRLINE 
                   AMBASSADORS INTERNATIONAL

    Ms. Rivard. Thank you, again, Congressman Smith. And it is 
an honor to be able to testify to the committee.
    I am Nancy Rivard, president of Airline Ambassadors.
    It is documented that human trafficking activity increases 
around major sporting events and traffickers move their victims 
to these cities, using all forms of transportation, including 
airlines.
    Airline Ambassadors was established in 1996 as the only 
independent charity of the airline industry. We have been on 
the forefront of raising awareness on this issue since 
correctly identifying trafficking on four flights in 2009. One 
of these cases led to the bust of a human trafficking ring in 
Boston involving 86 children.
    After researching the issue, we learned that the U.S. had 
signed a Palermo Protocol in the year 2000, committing, among 
other things, to stop the use of commercial airlines as a means 
of transport for trafficking offenses. We were appalled to 
learn that no action had been implemented.
    As flight attendants, we knew that airlines have 
infrastructure to provide training at virtually no additional 
cost during annual emergency procedure training. An effective 
protocol could be established for ground personnel to receive 
calls from pilots regarding potential trafficking. We solicited 
Congressman Smith to provide a briefing to airlines in 2010, 
and as a result, American Airlines issued a bulletin to flight 
personnel and later incorporated the proper procedure in the 
crew manuals.
    We work closely with Customs and Border Protection to 
develop an industry-specific training consistent with the Blue 
Lightning protocol. We have provided complimentary trainings 20 
times, starting in 2011 before the Super Bowl in Dallas, and up 
to last week at Mineta San Jose Airport with Congressman Honda 
as part of an effort to raise awareness in the Bay area before 
Super Bowl 2016 in Santa Clara.
    The DSH-established protocol trains airline crew to pay 
attention to passengers boarding flights, be alert for children 
and who they are traveling with, as well as young people 
traveling alone, or anyone appearing nervous, unsure of their 
destination, or in control of someone else. Flight attendants 
are taught to interact with passengers in a friendly, 
nonthreatening manner, giving them opportunities to gather 
information and vastly increase intelligence regarding 
potential trafficking situations. We train crew to be alert for 
indicators, but never to try to rescue a victim or display 
unusual concern or alarm. If uncomfortable, they are to report 
the situation to the cockpit with the seat numbers of 
passengers. Pilots are to call station operation command at the 
arrival airport and, in turn, call the DHS tip line to alert 
law enforcement for proper assessment.
    Although positive momentum has begun with several airlines 
adopting the DHS Blue Lightning computer-based training, the 
truth is that major airlines are still not adequately training 
their staff by emphasizing this in classroom training and 
establishing procedures for ground personnel. The typical 
flight attendant glosses through online trainings as fast as 
they can, and very little of the information covered is 
retained unless emphasized in classroom instruction.
    When I attended emergency procedure trainings in June 2013, 
there was one slide out of several hundred on this protocol in 
the online portion, and it was not mentioned in the classroom. 
Afterwards, our team visited station operation command center, 
where flights all over the world were being monitored. We asked 
a supervisor what he would do if a pilot reported a potential 
human trafficking situation, and he said, ``I would take no 
action in this situation. It is not a threat to aircraft 
security and not in my realm of responsibility.'' This has to 
change.
    For the protocol to be effective, all employees must be 
aware of it and all employees must be trained. They must 
understand that human slavery is a reality and that their 
action can save a life.
    American Airlines has begun including a scenario in the 
classroom training for new hire flight attendants, and this is 
a move in the right direction. Silver Airlines uses both DHS 
computer training as well as Airline Ambassadors training in 
the classroom. They have told us that the classroom training is 
more profound and touching, therefore, more effective.
    Flight attendants carry flashlights as part of their 
uniform requirement, and we produced flashlight cards and 
wallet cards with key indicators and the tip line number for 
easy access, which we will gladly make available to U.S.-based 
airlines.
    We will also continue providing awareness trainings at 
major airports as a public service. Our next training in 
Phoenix, the home of Super Bowl in 2015, with Innocents at 
Risk, has over 120 flight attendants already committed from 
American Airlines, Alaska, Delta, Frontier, United, Southwest, 
U.S. Air, Sky West and more, who are spending their own time 
and money to attend. Flight crew are hungry for knowledge and 
want to be a frontline of defense in this horrific crime.
    Airline Ambassadors also hosted a meeting in late 2013 with 
every major flight attendant and pilot union, representing over 
100,000 flight crew. We received huge support on this issue, 
and in the words of the president of the Association of 
Professional Flight Attendants, Ms. Laura Glading:

        ``We are committed not only to preparing our membership 
        to recognize and report suspected instances of human 
        trafficking but also to raise public awareness of the 
        problem. Flight attendants have thwarted these 
        criminals in the past, but putting an end to human 
        trafficking will require a coordinated and sustained 
        effort as well as the commitment of the entire 
        transportation industry.''

    [The prepared statement of Ms. Rivard follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Rivard. Thank you, and I ask that the wallet cards and 
flashcards be included as part of the report.
    Mr. Smith of New Jersey. Without objection, so ordered. And 
all of your full statements or any materials you would like to 
attach to it will be made a part of the record.
    Ms. Smolenski.

STATEMENT OF MS. CAROL SMOLENSKI, EXECUTIVE DIRECTOR, END CHILD 
                PROSTITUTION AND TRAFFICKING-USA

    Ms. Smolenski. Thank you so much, Chairman Smith, Congress 
Members Weber and Reichert. So nice to see you here today.
    Thank you so much for this opportunity to talk to you about 
preventing human trafficking during major sporting events. 
Thank you for the very generous introduction as well.
    I am Carol Smolenski from ECPAT-USA, which is the U.S. 
branch of an international organization that works in 75 
countries to protect children from sexual exploitation. I will 
only be summarizing my comments today, and I do have extended 
comments that I would like to enter into the record, and 
especially because we are international, I do have some 
comments about the international aspects of the issue that I 
probably won't have time to tell you about today.
    I am also grateful to you for that really quite thorough 
overview of estimates about the size and scope of the problem, 
which I was going to say something about but which I can skip 
now.
    I just want to say that when we are asked questions about 
statistics, what I do say that we are sure about is that 
children are bought and sold in the commercial sex trade in the 
United States. These are children who are brought in from other 
countries and also American children, sometimes very young 
children. Adolescents from age 12 to 17 are integrated into the 
adult commercial sex market. They are not in a separate market. 
Anybody patronizing the sex market may very well be a child sex 
exploiter.
    Best estimates are that at least 100,000 American children 
are involved. I know you talked about that. It is important to 
remember, though, that this includes both girls and boys. And 
because this is a market in human bodies with a supply side and 
a demand side, we focus our advocacy on major events when the 
demand side becomes more concentrated in one geographic 
location for a short period of time before then dispersing 
again, so that is why we put so much focus on these sporting 
events.
    There are extensive prevention training, awareness raising, 
and other activities for the Super Bowl taking place in New 
Jersey. I am very pleased that we have been able to be part of 
the multi-stakeholder groups working on this since February in 
New Jersey. And I know you talked about some of this already, 
the New Jersey Anti-trafficking Coalition, the Tri-State 
Coalition for Responsible Investing, and also the New Jersey 
Attorney General's Office have all been very hard at work for 
the last several months specifically on preparing for the Super 
Bowl.
    As part of this hardworking and creative team, I am pleased 
to report our specific projects in New Jersey. With the use of 
online classified ads, as we know, child trafficking has moved 
off the streets. Traffickers rent rooms in hotels, go online to 
create an ad in adult sexual services pages, and sell victims 
right out of a hotel or have victims meet purchasers at nearby 
hotels. Buyers prefer hotel rooms because they believe they are 
anonymous there, giving them a sense that there is little risk 
their behavior. In a study by John Jay College of Criminal 
Justice and the Center for Court Innovation in New York City in 
2008, researchers found that 45 percent of surveyed exploited 
youth were exploited in hotels in New York.
    So ECPAT promotes the Tourism Child-Protection Code of 
Conduct, six steps that companies can take to protect children 
from sexual exploitation. More than 20 U.S. companies and 
associations have signed the code of conduct, including Delta 
Airlines, of course. Nix Meeting Management, which was actually 
mentioned by Congress Member Wagner before, is also a member of 
the code. And we have recently had a groundswell of requests 
for information about the code from companies in Seattle, which 
we have been handling, and just recently a company in Seattle 
signed the code.
    The advantage of the code is that it calls for companies to 
use their resources to train staff and raise awareness about 
child trafficking. We couldn't get this done on our own. We 
require the partnership of these committed partners putting all 
of their strength to meet our goals. And, in fact, everyone in 
this room has the power to decide what companies to patronize, 
and you can use your patronization of companies to indicate 
which companies that you appreciate when companies do training 
and awareness raising.
    We focused our attention in New Jersey on the hotel sector. 
In November, we co-sponsored a training session with the New 
Jersey Hotel and Lodging Association, where we gave a 
presentation on hospitality's role in identifying and reacting 
to child sex trafficking. Later that month, we were invited by 
the New York City Hotel and Lodging Association Security 
Committee to train security representatives of major hotels and 
local law enforcement on that same topic, attended by about 40 
law enforcement and industry personnel. On January 10th, we 
were invited by Jersey City to give that presentation, and 100 
percent of Jersey City's hotels were in attendance, around 25 
people. Very great.
    Our industry partners have been active as well. Carlson 
Rezidor, a member of the Tourism Child Protection Code of 
Conduct has a policy of contacting hotels in cities prior to 
major events and asking properties to ensure responsible 
business training is up-to-date or to offer a refresher of 
their child protection training module. Hilton Worldwide, also 
a member of the code, reported that they completed training of 
hotels in New Jersey and New York in December and have done 
follow up in January. They trained over 250 team members that 
then cascaded down to their teams.
    Some noncode companies are also stepping up. Like Carlson, 
Starwood Hotels and Resorts contacts hotels and cities prior to 
major events to provide them with the company's human 
trafficking awareness training.
    ECPAT-USA provided subject matter comments and suggestions 
for Starwood's e-learning module, which was piloted in December 
and January in New York and New Jersey, again, in preparation 
for the Super Bowl.
    As for awareness raising, ECPAT is a co-sponsor of the U.N. 
Gift Box Project, now installed near Union Square in New York, 
to raise awareness about human trafficking. It is a walk-in 
piece of street art that looks on the outside like a giant 
gift-wrapped box, and then you learn inside about stories about 
human trafficking. And I am grateful to Holly Smith, in fact, 
for being willing to contribute her story to that gift box that 
is now open for the public to learn about trafficking.
    And finally, we have been working with the New York City 
Port Authority to bring the Department of Homeland Security's 
Blue Campaign awareness-raising posters to the New York, New 
Jersey area. Just recently, the Port Authority Bus Terminal 
installed 25 of the Blue Campaign posters. And we are working 
with DHS so that hopefully, by the end of the week, the New 
York area airport will also have posters in the airports as 
well.
    In my extended remarks, I have information from a 
conference last year that reviewed anti-trafficking preparation 
for the two previous World Cups in 2006 and 2010 as well as 
what Brazil is doing in preparation for the upcoming events in 
Brazil.
    Let me just conclude by saying that we have been doing this 
for 23 years, and we have seen enormous changes for the better 
in our society, no less due to Congressman Smith's leadership 
on this, no question about it. We now have a society willing to 
acknowledge that child sex trafficking exists, our legislators' 
commitment to past legislation to combat it, our criminal 
justice system's ability to identify exploited children, our 
child welfare system's ability to help them, and the private 
sector's acceptance of their role in protecting children. This 
is fantastic progress that we have made.
    We still have more to do. And I consider the major sporting 
events like the Super Bowl to be an opportunity for us 
advocates to further move the ball down the field to our goal, 
a world in which all children are free from commercial sexual 
exploitation. Thank you for your attention.
    Mr. Smith of New Jersey. Thank you so very much, Ms. 
Smolenski.
    [The prepared statement of Ms. Smolenski follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. And we do plan on a series of 
follow-up hearings, Brazil will be one of those, so we do hope 
that you will come back, and as we often do, we will reach out 
to the Ambassador and others to further the cooperation between 
our own Government, particularly the legislative side. So thank 
you and I did read your comments. They were excellent.
    Ms. Slomenski. Thank you.
    Mr. Smith of New Jersey. I would like to now recognize for 
such time as she may consume, Letty Ashworth, from Delta.

  STATEMENT OF MS. LETTY ASHWORTH, GENERAL MANAGER OF GLOBAL 
                   DIVERSITY, DELTA AIRLINES

    Ms. Ashworth. Chairman Smith and members of the 
subcommittee, thank you for inviting us to talk about Delta's 
efforts to combat the scourge of human trafficking and child 
exploitation. Our CEO, Mr. Richard Anderson, says it best: 
Delta's core values, along with the responsibility that comes 
with our global reach, have led us to be at the forefront among 
airlines in this fight against human trafficking.
    Human trafficking presents a serious and ongoing threat. 
Training Delta employees to spot the indicators of human 
trafficking, enhancing passenger awareness, and coordinating 
with law enforcement are essential tools to fight it.
    This year, thousands of people will make the trip to New 
York City for Super Bowl XLVIII. As New York's largest air 
carrier and official airline of the Seahawks, Delta will fly 
the Seahawks and many thousands of fans from dozens of points 
of our global network to the game.
    Our customer-facing employees have received training, are 
in a prime position to be eyes and ears to spot potential cases 
of human trafficking, and point them out to law enforcement. 
All of us at Delta take seriously the responsibility to do what 
we can to stop trafficking. To that end, Delta has established 
a formal policy against human rights abuse that condemns human 
and child trafficking. Employees who participate in human 
trafficking or child sexual exploitation will be subject to 
termination.
    Beyond setting the right expectations for employees, Delta 
works actively to help highlight and combat human trafficking. 
In 2011, Delta became the first U.S. carrier to sign the End 
Child Prostitution, Pornography and Trafficking--ECPAT--
International Code of Conduct for Tourism. As part of Delta's 
partnership with ECPAT and implementation of the code, Delta 
has established an ethical policy regarding commercial sexual 
exploitation of children; implemented company-wide training 
requiring employees to report any suspected incidents of 
trafficking to their managers or law enforcement; introduced a 
supplier contract clause stating a common repudiation of child 
commercial sexual exploitation; committed to raising awareness 
about human trafficking and sexual exploitation of children; 
provided information to key persons in key locations who 
informally support the code; and reported annually on our anti-
trafficking and child exploitation awareness efforts.
    Delta has undertaken a number of efforts to highlight the 
problem of human trafficking. We participated in Human 
Trafficking Awareness Day in January 2012, invited a victim 
advocate to address employees, and regularly update employees 
and shareholders through our internal news publications and in 
shareholder meetings.
    In 2012, Delta became one of 12 founding companies of the 
Global Business Coalition Against Human Trafficking, and in 
June 2013, Delta became one of the first airlines to adopt the 
DHS Blue Lightning Initiative. Blue Lightning provides airline 
employees with tools to identify and report suspected instances 
of human trafficking. All customer-facing Delta employees were 
scheduled to have completed the training by the end of 2013.
    Delta also participates in events where businesses, 
governments and nonprofits connect to address the issue, 
including the Council on Foreign Relations, the Interfaith 
Center on Corporate Responsibility, McKenna, Long and 
Aldridge's Women's Initiative, and the Delta-hosted January 
10th One Step Forward Summit.
    Delta is also involved with the Transportation Leaders 
Against Human Trafficking, championed by the former Secretary 
of Transportation, Ray LaHood.
    Individuals at Delta and our extended Delta family feel 
passionately about the issue and are personally engaged. A 
wonderful example is Anna Bastian, who has joined us here 
today. Mrs. Bastian is the wife of Delta's president, Ed 
Bastian, and she is extensively involved in the Polaris 
Project, dedicated to fighting trafficking and providing vital 
services to victims. Anna's leadership on this issue helps set 
the tone and encourages others at Delta to get involved.
    Again, Mr. Chairman, and members of the subcommittee, we 
are honored to join you here today. We hope that this 
encourages others in transportation to take what steps they 
need, they can, and should to stop human trafficking and child 
exploitation. I would be glad to answer any questions you might 
have. Thank you.
    Mr. Smith of New Jersey. Ms. Ashworth, thank you very much 
for your testimony.
    [The prepared statement of Ms. Ashworth follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. And I think I can say without any 
fear of contradiction that Delta is the quintessential example 
of corporate responsibility with a commitment to protect the 
most vulnerable. And we, the subcommittee, are so grateful for 
your leadership as well as Anna's.
    I would like to now go to Ms. Smith.

STATEMENT OF MS. HOLLY SMITH, SURVIVOR OF TRAFFICKING AND ANTI-
                      TRAFFICKING ADVOCATE

    Ms. Smith. Good afternoon, Chairman Smith and members of 
the committee.
    My name is Holly Smith, and I am a survivor of child sex 
trafficking within the United States. In 1992, at age 14, I was 
a shy, insecure and angry teenager. I had just graduated eighth 
grade middle school, and I was afraid of starting high school. 
I was afraid of getting beat up. I was afraid of never being 
pretty or cool enough to get a boyfriend. And I was afraid of 
losing my friends. I was also very depressed and in need of 
real help and guidance.
    I grew up in rural south Jersey, and my friends and I often 
hung out at the local mall. It was at this mall that I met a 
man who picked me out of the crowd and asked for my phone 
number. I felt special that he picked me, and he told me that I 
was special when we talked on the phone. He said I was too 
mature for high school, that I was pretty enough to be a model. 
He said he could introduce me to famous bands and that I could 
become a songwriter. As a kid who grew up on MTV, this was my 
dream.
    After we talked on the phone for about 2 weeks, this man 
convinced me to run away from home with him. Within hours of 
running away, I was forced into prostitution on the streets and 
in the casino hotels and motels of Atlantic City, New Jersey. 
Thirty-six hours later, I was arrested by police and treated 
like a criminal. Without appropriate aftercare services, I 
struggled for many years to overcome my victimization.
    As a young adult, I managed to put the past behind me, and 
I graduated college with a 3.6 GPA in biology and a minor in 
writing. I had been working as a microbiology analyst for 
nearly 10 years when I happened to watch a documentary on sex 
trafficking in India. It wasn't until then that I realized that 
what had happened to me as a child happens to women and 
children across the globe.
    Today, I advocate against all forms of commercial sexual 
exploitation of children and all forms of human trafficking 
against any person. I recently wrote an academic book on child 
sex trafficking in the United States, called ``Walking Prey,'' 
and through my research, I discovered many inconsistencies in 
much of what I was seeing and hearing in the media.
    I believe the biggest lesson to learn from past Super Bowl 
preparations is the importance of credibility and longevity in 
prevention and aftercare efforts. In a blog post last week, 
Rachel Lloyd, founder and CEO of Girls Educational and 
Mentoring Services, explained that ``shaky'' and ``overblown'' 
statements and statistics can and has caused damage to the 
credibility of the anti-trafficking movement. ``We want people 
to get engaged in this work and the movement for the long 
haul,'' explained Lloyd. However, people are often ``so put off 
by the hyperbole'' and sensationalized statistics, that soon 
after the sporting event has passed, many are left in a state 
of ``disillusionment and cynicism'' toward the movement.
    This kind of awareness and prevention is counteractive. 
Statistics and claims must be studied and verified, and 
prevention efforts cannot begin and end with sporting events.
    In January 1992, the year I was trafficked, the Washington 
Redskins and the Buffalo Bills competed at the Super Bowl in 
Minneapolis, Minnesota. Had there been an anti-trafficking 
awareness campaign in Minneapolis, could the explosion of media 
attention reached me on the east coast? Could I have been 
warned? Maybe. I guess we will never know, but what I do know 
is this: There were significant awareness campaigns around the 
Super Bowl events in 2010, 2011, and 2012, yet after I had 
presented my story in 2013 to the very middle school from which 
I graduated in 1992, a girl raised her hand and asked me, ``Why 
am I just now hearing about this?''
    I pose this question to the committee: Why had a 14-year-
old girl and a group of at-risk youth never heard of child sex 
trafficking? It is because our nationwide efforts on child sex 
trafficking prevention are misplaced and lacking.
    The Department of Education needs to create and include 
programs for the education and prevention of child 
exploitation. Such programs should address media literacy, 
healthy relationships, healthy role models, mental health 
awareness, coping skills, volunteer projects, education about 
social issues in the community and abroad, including human 
trafficking, and education about community services.
    Commercial sexual exploitation of children and sex 
trafficking of any person can happen at many types of sporting 
events, from Bike Week in Myrtle Beach, South Carolina, to 
hunting season in South Dakota. However, there are many other 
risk factors in many communities in the United States that can 
raise the demand for commercial sex, thereby increasing the 
risk of commercial sexual exploitation of children and sex 
trafficking. These include, but are not limited to, the 
presence of a commercial sex industry, tourist and business 
attractions, proximity to military bases or other locations 
with transient populations of men, a high transit area, a 
subculture of homeless youth, a presence of gangs, and a 
proximity to national borders.
    Education and awareness campaigns about commercial sexual 
exploitation of children and sex trafficking of any person must 
be developed and maintained in all such communities in order to 
help prevent this type of exploitation. In addition, there must 
be outreach efforts to connect with potential victims and offer 
long-term aftercare services. Furthermore, programs must be 
created and maintained to address those factors that might 
predispose adults and children to being vulnerable to 
commercial sexual exploitation, including sex trafficking.
    In my book, ``Walking Prey,'' I list many predisposing 
factors to keep in mind for prevention programs specific to the 
commercial sexual exploitation of children, including school 
bullying and poverty, and everything in between. The same 
applies to other forms of child exploitation and human 
trafficking. Awareness, prevention and aftercare programs must 
address all risk factors and root issues.
    If we are to continue the campaign against sex trafficking 
at sporting events, then we must use the opportunity to bring 
to every city both accurate information and resources for long-
term awareness, education, and aftercare. This is because, as 
Rachel Lloyd points out, ``commercial sexual exploitation and 
trafficking will undoubtedly happen in the New York/New Jersey 
area during the first week of February [with Super Bowl 
XLVIII], and the second and third and fourth week of February, 
and in March and April and every single day and every night 
throughout the year.'' This applies to any community in the 
world that may be vulnerable to any form of exploitation.
    Thank you for providing me this opportunity to be here 
today.
    Mr. Smith of New Jersey. Ms. Smith, thank you so very much 
for your courage, your willingness to help others by talking 
about the ordeal you have gone through.
    [The prepared statement of Ms. Smith follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith of New Jersey. I do have a question. Did the 
Atlantic City Police recognize you as a trafficking victim or 
were they just tone deaf?
    Ms. Smith. I was recognized as a victim later in the 
investigation, and all the traffickers in my case were 
arrested. But because of the way that I was treated initially, 
it affected the way I responded to law enforcement throughout 
the case.
    Mr. Smith of New Jersey. How long into that process, when 
did they finally realize it was trafficking? I mean, was it the 
first days?
    Ms. Smith. They never used the word ``trafficking,'' but I 
think that they recognized that I was a victim, but they didn't 
know just how to treat me. They sort of treated me like an 
adult, and they treated me like I got myself into a bad 
situation. It was never explained to me that I was exploited or 
manipulated.
    Mr. Smith of New Jersey. Did female police officers handle 
your case or men?
    Ms. Smith. Men.
    Mr. Smith of New Jersey. How old were you?
    Ms. Smith. I was 14.
    Mr. Smith of New Jersey. And no special provision was 
provided to you?
    Ms. Smith. Nothing whatsoever as far as services 
afterwards. I was sent home. And it was really traumatic. I 
should have never been sent home that way.
    Mr. Smith of New Jersey. Could you tell us who or what 
helped you get through this ordeal? Was it faith? Was it a 
shelter or someone who helped you?
    Ms. Smith. It was my school teachers. It honestly, my 
school teachers played a very big role in keeping me on 
somewhat of a straight path enough. And they are the ones who 
really encouraged me to stay in school and to go to college. 
That is why it is very important to me that advocacy and 
awareness and prevention and training get into schools, because 
I really believe teachers want to be a part of the solution. 
They just need the tools.
    Mr. Smith of New Jersey. Now, the traffickers who were 
convicted, how many other young women and young girls did they 
exploit?
    Ms. Smith. I actually don't know the answer to that 
question. I was removed from the case very quickly because my 
parents just didn't know how to deal with it. And nobody really 
knew what to do with me or how to deal with it. So, as soon as 
they got my testimony, I really was never involved again until 
I drove to Atlantic City and retrieved my case files just a few 
years ago.
    Mr. Smith of New Jersey. Thank you.
    Let me just ask Nancy Rivard, if you could, you have been 
doing flight attendant training for years. You will recall that 
both you and Deborah Sigmund spoke at that conference that we 
had in 2010. As a matter of fact, Deborah testified before a 
commission of Congress in 2010. That was 3 years ago. It seems 
as if we are making progress, but with the exception of 
airlines like Delta, the others have not climbed aboard to 
really make a difference here. And I am wondering if you have 
any thoughts on how we can further get the other airlines to 
step up to the plate. I mean, I think Delta provides a shining 
example of what can be done when there is commitment.
    Ms. Rivard. Yes. I couldn't agree more. And just to tell 
you, recently, a Delta flight attendant that is one of our 
members has put together a list of 64 activist flight 
attendants who want to take our Train the Trainer Program and 
help spread the word around the country. She will be coming to 
the training that Deborah and I are doing together, Airline 
Ambassadors and Innocents At Risk, in Phoenix February 10.
    I think that the committee, if you can help us by reaching 
out to the airlines to follow the example of Delta, and expand 
upon it with the importance of emphasis in classroom training.
    Frontier, I found out this month, trafficked three children 
into Denver. And as a result, they acknowledged that this had 
happened on their aircraft. And they are now anxious, according 
to a phone call yesterday, to jump on board, train their 
employees. They have invited us to provide a Train the Trainer 
to their staff, and also open a training to all the airlines in 
the Denver area. We are very excited about this kind of 
opportunity. And again, getting the word out with hands-on 
classroom training to people and flight attendants, flight 
crew, and all airline employees.
    Mr. Smith of New Jersey. How effective have you been with 
the international airlines? I sometimes feel like I am your and 
Deborah's pamphleteer. Everywhere I go, I met with the foreign 
minister, for example, of Ethiopia recently. The Ethiopian 
Airlines certainly is a major conduit of exploited women, 
especially into the Middle East, as well as elsewhere. I 
recently spoke with the president of Peru and a couple of other 
presidents. I forever disseminating this information--Peru. And 
gave him the information. He showed a great interest as well. 
And yet we call back. We try to find out, well, what is being 
done? And we find out, well, they are looking at it. And I 
wonder if you have any sense of how we can get this off the 
concept stage to the true implementation stage.
    Ms. Rivard. Well, I feel that the training that we gave 
together in Kiev, Ukraine, in June, was actually the first 
formal training I know of of the airline industry in Europe. 
And as a follow up to that, we attended the Interpol Conference 
on Human Trafficking in November and received huge interest 
from countries around Europe. As a follow up, we are going to 
Canada. The Ambassador of Hungary has asked us for a training. 
And also Ireland, the Ireland Immigrant Council is now focusing 
on airlines. So the problem is in the United States, we have 
the DHS tip line; in other countries, we are suggesting now 
that they follow the protocol we developed with Ukraine to call 
the Customs Border Protection--national airlines call the 
Customs Border Protection number in their area until Interpol 
is strengthened to act similar to DHS for all of Europe.
    But I am excited to see the movement. Again, we have three 
or four countries internationally requesting our services and 
realizing that this one action, this one implementation can 
affect millions, will impact millions of eyes, and potentially 
stop thousands and thousands of trafficking cases.
    Mr. Smith of New Jersey. Thank you.
    Ms. Ashworth, what has been the feedback from the 80,000 
employees on identifying trafficking? Has it been a mind opener 
for them? Are they enthusiastic about it? And your code of 
conduct, how has that been received by some of the vendors from 
which you buy goods?
    Ms. Ashworth. Well, it was said earlier, I think the 
enthusiasm of our employees has been shown by the number who 
have actually taken the training since September 9. As of 
September 9, through our numbers last week, we have trained 
somewhere between 58,000 to 60,000 of our 80,000 employees. 
Likewise with our vendors, they, too, are on board as part of 
our policy, and we have only received positive feedback.
    Mr. Smith of New Jersey. Since you do so much abroad, so 
many of your flights obviously are international, do you find 
some of the other carriers showing an interest where they might 
want to say, ``Let's do what Delta has done''?
    Ms. Ashworth. Absolutely. It is ongoing dialogue, and we 
are working with them daily. We are hosting events, as I 
mentioned, the January 10 summit at Delta Airlines. And we will 
continue to do so throughout the year.
    Mr. Smith of New Jersey. Ms. Smolenski, I was very happy to 
see you say that you are encouraged. We don't hear that all 
that often. But you also point in your testimony that hotel 
rooms are the preferred venue for the sale of children because 
exploiters believe they are anonymous at hotels, giving them a 
sense that there is little risk in their behavior. Is any of 
that changing? I know that you have personally, and your 
organization has continually trained hotel individuals to spot 
trafficking at the front desk, by the concierge, everyone else 
in-between. And I am wondering if there is true buy in there? 
Are they really getting it?
    Ms. Smolenski. Absolutely. First of all, let me just 
respond to your comment about me being encouraged, because in 
fact, when you do this for a really long time you see real 
change taking place. So it takes several years. It is not like 
we are going to have big change by next year. Maybe we will. 
But when you have done it for a long time, it is really night 
and day, not that we still don't have big problems of children 
being trafficked. It is really true. But from when I started in 
1991 to today, there are huge changes for the better.
    I am always also extremely encouraged when companies take 
the training. I guess I can't tell you specific cases, because 
I would need to check with the company about telling an 
anecdote about what they learned. But without fail, every 
company that has signed the code of conduct and has gone 
through training, there have been people who said, Oh, yeah, I 
saw something like that. I didn't know what to do then; now I 
know what to do. Or even specific cases of kids who have been 
identified in New York City in particular. So it doesn't take 
that much for people, because the people have an instinct. They 
see something wrong. They know something is a little wrong with 
this situation, but unless their company has a policy and has 
trained them that, yes, they are supposed to do something, are 
supposed to tell their supervisor, there is something they are 
supposed to do, too frequently they have looked away. And now 
when companies train, have a policy like Delta, now they know 
that they are not supposed to look away, and they are supposed 
to do something. And the response we are getting is that 
people, employees are gratified by that. It made them feel 
uncomfortable when they didn't know what to do, and there was 
something wrong, but they had to look away because they didn't 
want to get in trouble with their employer. So I think that 
companies, and we have heard this over and over again, their 
employees are very, very happy about it.
    Mr. Smith of New Jersey. And finally, Chief Hanson, if you 
could, Chairman Reichert talked earlier about the annual 
training, and I think he called it retread training. And I am 
wondering if that is what is contemplated at Amtrak. And 
secondly, could you provide some examples of success stories 
that you might have so far post-training?
    Chief Hanson. So, prior to our partnership with DOT and 
DHS, our members would have received training in the 
jurisdictions in which they are commissioned. So that is where 
they went through the retread. So I think for us to have the 
opportunity to launch the DHS training was really a huge 
opportunity. And in fact, in preparation for the Super Bowl, 
what we did was require our 500 members to go through that 
training again. I just did that this morning and then also took 
the DHS awareness training. So we are looking forward, we are 
in conversations now with DHS to do the next version of that 
for Amtrak police, and then with our own employees, 
particularly our onboard service. Here in the Northeast 
Corridor, the conductor and the onboard service crew is pretty 
busy there because it is pretty fast moving; those trains stop, 
they have got to get your ticket. But you get out of the 
Northeast Corridor, you get on a long haul, you go from here to 
New Orleans, or from Portland to Oakland, there is more of an 
opportunity for a crew to really put eyeballs on people. So 
there we do have a training opportunity here in 2014 with our 
onboard staff. And our police officers will be giving some 
training actually on active shooter. And then we intend, once 
again, to share, to do a refresh on the indicators and the 
awareness for human trafficking.
    Interestingly enough, just in October, we had a case where 
a gal went to the bathroom and called 911 and had been on the 
Northeast Corridor from New Jersey and, in this case, had been 
in Laurel, Maryland. They were in Union Station, where they had 
come down here. She was in an abusive relationship and was 
forced into prostitution. And working with the Metropolitan 
Police, a special squad that does sex trafficking, we were able 
to arrest the subject who was abusing and pimping this woman. 
And then, of course, the Metropolitan Police have strong 
relationships with NGOs to supply support once those cases are 
made. And that case actually is coming up to court in 2 weeks.
    Mr. Smith of New Jersey. Thank you.
    Mr. Meadows.
    Mr. Meadows. Thank each of you for being here, and truly 
for your testimony.
    But more importantly than that, I want to thank you for 
taking this on, when it is not something that is talked about. 
It is not something that many times is applauded. It is 
something that many times we have a difficult time grasping and 
understanding, whether it be with victims or whether it is how 
to really look at it. So I just want to say thank you for your 
work. I do want to follow up a little bit, and my colleague 
here to my right has mentioned about the training. You know, 
you only really emphasize those things that you continue to 
train. Many of you are involved in training aspects way beyond 
just the human trafficking aspect of that. And if you don't 
continue to train and continue to put an emphasis on it, it 
falls by the wayside. So how can we highlight? I think, Ms. 
Rivard, you said there are 64 people that are taking this on 
personally. Is that correct?
    Ms. Rivard. Yeah. That is coming from Delta. They are the 
flight attendants that want more training, that have asked us 
to provide it. We are looking to train a pool of flight 
attendants that can go out and make this real for other 
airlines and other colleagues in the field.
    Mr. Meadows. And so can we as Members of Congress encourage 
them, whether it be letters, phone calls? If you will get us 
that list, I am sure I can work with Chairman Smith to make 
sure that those 64 people--right now, they are just a number. I 
would like to make sure that we thank them individually for 
their efforts and to encourage it. I sit on the Aviation 
Subcommittee.
    Ms. Rivard. Oh, that is great.
    Mr. Meadows. And this is the first time that I am really 
hearing all of this. And so I am on Transportation, and so I 
plan to take it back to my committee to make sure that we start 
to highlight this, whether it is on the Aviation Subcommittee 
or on Rail or wherever it may be. Secretary Foxx is a father. 
And I plan, as I leave here, to call the Secretary and let him 
know about this, because I think if we redouble our efforts, 
what we will start to see is that we will make a difference.
    And so the optimism that has been shared here today, I want 
you to know that your efforts, I applaud your efforts, each one 
of you. I applaud your bold stand and willingness to not only 
come, but congratulations on a 3.6 GPA. I mean well done.
    Ms. Smith. Thank you.
    Mr. Meadows. And I am just thankful for those teachers who 
invested in you, who have would never have known that you would 
be here on Capitol Hill testifying before Congress on something 
that is so intimate but so vitally important.
    So I will submit a few questions for the record. I just 
want to say thank you.
    And I will yield back, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you, Mr. Meadows.
    Chairman Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    First of all, you know, I forgot who mentioned this, but if 
I could say, Go Seahawks.
    I think there is an opportunity here to work with the NFL. 
I am imagining that you have all thought of that already. And I 
know that Coach Carroll is engaged in an effort in Seattle he 
calls A Brighter Seattle, in working with young people on the 
streets of Seattle, which I think certainly sounds to me like 
it would fit into what we have been talking about today. So I 
think the NFL would be a great partner with the airlines. They 
fly a lot, obviously. And I was in the airport yesterday when 
they left on Delta. I almost wanted to get on their plane. I 
wanted to also touch on the training thing real quick.
    I am not sure that academies do this today, but it might be 
a great opportunity to sort of look at having someone like Ms. 
Smith, if they have the courage like she does, to go and share 
her story with the first line law enforcement officers and the 
detectives and those personnel who are dealing with young 
people on the streets. Maybe before they get the badge and the 
swearing-in ceremony occurs, might be a good idea for him to 
hear from someone who has been there on the streets, survived, 
and really could hear how serious a problem this is, how 
traumatic it is. And I think you recognize, from my earlier 
comments, that this really touches me, because I have seen a 
lot of tragedy.
    So I really want to commend Ms. Smith. I never did get a 
3.6. So you are doing something right. And look it, I ended up 
here in Congress. I was lucky to get a 2.9, I think was 
probably the highest I got.
    But I wanted to really emphasize what you said about 
teachers. Because I mentioned that earlier in my comments, too. 
It was my geometry teacher, football coach that kept me from 
going further down the road to where I know I shouldn't have 
been going. And I, too, wanted to commend your teachers, and 
you for listening to them, because sometimes teachers aren't 
always listened to.
    And then I just wanted to say that one of the things we 
need to do, all of us in this room are here to work on this 
problem and eliminate it. That is the goal, not reduce the 
numbers, but eliminate it. And there is a team here, if I can 
call you Holly for a second, Holly, there is a team here with 
you now, of people.
    Ms. Smith. Thank you.
    Mr. Reichert. We want to help.
    Ms. Smith. Thanks.
    Mr. Reichert. And you mentioned prevention, education, 
aftercare, advocacy, awareness, and all those things. But I 
think we need to really listen to your testimony, act on your 
testimony. My question for you is, what do you think is the 
most needed service that would best help those victims and 
survivors of sex trafficking?
    Ms. Smith. I think that prevention is really lacking. When 
I talk to young girls, they haven't heard about sex 
trafficking. But even before a child reaches the point of being 
vulnerable to trafficking, I think that many of these girls are 
first vulnerable to sexual exploitation in itself, just being 
sexually exploited by somebody. And so I think there needs to 
be a stronger prevention program for at-risk youth that 
includes just a number of programs that can prevent sexual 
exploitation.
    And that would include media literacy and understanding for 
the messages. Kids are surrounded by media messages. And 
oftentimes these media messages are of sexualized women, 
objectified women. We kind of live in this culture that 
normalizes the sexual objectification and exploitation of 
women. And so I think that it needs to begin in schools, a 
deconstruction of media messages, not just to empower girls 
from being victimized but to educate boys that it is not okay 
to look at girls that way.
    Mr. Reichert. Yeah. Well, I want to thank you all again for 
all you do.
    And thank you so much, Ms. Smith, for being here.
    And Mr. Chairman, I yield back.
    Mr. Smith of New Jersey. I want to thank our five very 
distinguished and very effective women for testifying today, 
for your work on behalf of those who are commodified and 
exploited. You have made a huge difference, will continue to do 
so. And I do think that the five of you are trafficking 
victims' best friends, and conversely, traffickers' worst 
enemy.
    Without objection, all members will have 5 days to submit 
statements and questions for the record. That includes a 
statement by Committee Chairman Ed Royce, which is submitted 
for the record. And American Airlines will also submit a 
statement. And we may get some statements from a few other 
airlines. The hearing is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
              <Hoarfrost><acctof><careof>t<star><o-times>
                <Copyright><star><box><diamond>a<star>a\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
      \<box>a<star><pound>ws<o-times><bell><star><pound><acctof>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
      <Register><box><careof><star><star><box><natural>t<o-times>
                      <bell><star><pound><acctof>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             <F-dash>\<Register><careof>va<natural><star> 
                      <lrg-box><F-dash><Register>\

 Material submitted for the record by Ms. Nancy Rivard, president and 
               founder, Airline Ambassadors International

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
